<html>
<title> - FBI OVERSIGHT</title>
<body><pre>[Senate Hearing 109-921]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-921
 
                             FBI OVERSIGHT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 6, 2006

                               __________

                          Serial No. J-109-122

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
36-140                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
    prepared statement...........................................   295
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa, 
  prepared statement.............................................   293
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                                WITNESS

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C..........     6

                         QUESTIONS AND ANSWERS

Responses of Robert S. Mueller III to questions submitted by 
  Senators Specter, Grassley, Sessions, Leahy, Kennedy, Biden, 
  Feinstein, Feingold, Schumer and Durbin........................    38

                       SUBMISSIONS FOR THE RECORD

Burlington Free Press, Burlington, Vermont:
    Anonymous, November 8, 2006..................................   286
    Adam Silverman, November 10, 2006............................   290
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C., 
  prepared statement and charts..................................   299


                             FBI OVERSIGHT

                              ----------                              


                       TUESDAY, DECEMBER 6, 2006

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 9:33 a.m., in 
room 226, Dirksen Senate Office Building, Hon. Arlen Specter, 
Chairman of the Committee, presiding.
    Present: Senators Specter, Grassley, Kyl, Sessions Cornyn, 
Leahy, Kohl, Feinstein, and Feingold.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen. The 
Judiciary Committee will now proceed with the oversight 
hearing.
    We welcome the distinguished Director of the Federal Bureau 
of Investigation. We have been trying to schedule this session 
since the arrests were made of terrorists in Great Britain in 
August.
    The issues raised by those arrests and the continuing 
threat of terrorism constitute an enormous problem for the 
United States. I think it continues to be our number-one 
problem, to protect the homeland from terrorist attacks.
    In that light, we are very concerned about the success on 
the interfacing of the various intelligence agencies in the 
United States. I think there is very forceful evidence that, 
had there been appropriate communication between the FBI and 
the CIA, 9/11 might well have been prevented.
    Now we have a more complicated intelligence field, with the 
Director of National Intelligence added to the mix with FBI, 
CIA and the Department of Homeland Security, and we are very 
anxious to see exactly how things are working out.
    There are continuing suggestions that the United States 
would be better served if the Nation had a counterintelligence 
unit, like in the mold of Britain's MI-5, and there is constant 
analysis as to whether there might be a better way to organize 
the FBI, and that is a subject we will be looking into.
    On November 9, less than a month ago, Dame Eliza 
Manningham-Buller, the Director-General of MI-5, gave a 
detailed account of the terrorist threat facing Britain. She 
revealed that MI-5 was currently investigating ``some 200 
groupings or networks, totaling over 1,600 identified 
individuals'' believed to be involved in nearly 30 plots to 
attack Britain. We would be interested in a similar accounting 
by Director Mueller.
    We are interested to know how the administration's 
Terrorist Surveillance Program is working. That program, 
disclosed almost a year ago on December 17, 2005 by the New 
York Times, has been a source of considerable attention by this 
Committee with our effort to structure some legislation and 
procedures which would have the traditional safeguards of a 
warrant where probable cause is established before there is 
wire tapping, before there is a search and seizure. That is a 
work in process.
    Regrettably, the Judiciary Committee has never been briefed 
on the Terrorist Surveillance Program, and we should have been. 
It is very difficult for us to conduct oversight when we deal 
with Director Negroponte of National Intelligence.
    I talked to Mr. Negroponte, tried to get him to come to a 
hearing here. He agreed, and then for some reason it was not 
carried out, just as we worked with Secretary Michael Chertoff.
    But we do have oversight authority with the FBI, and we do 
want to know how well the Terrorist Surveillance Program is 
working so that we can make an evaluation as best we can on 
limited information. Since, as I say, we are not privy to being 
briefed as to the success of the program contrasted with the 
invasion of privacy, our committee cannot make an evaluation. 
Some of that may have to be conducted in a closed session and 
we are prepared to do that to get at those facts.
    We want to know how successful the FBI has been in 
thwarting terrorist attacks. There are periodic reports in the 
media, but we do not have really a good handle on that. We need 
the details on how the Patriot Act is working; there again 
exists a delicate balance between our needs for effective law 
enforcement and protection of civil rights.
    We will be inquiring into what is happening with the 
technology, inquiring into a briefing by Congress on the 
anthrax case. The FBI has had a hand in making arrests, later 
turned over to the CIA, in a complex series of transactions 
involving Rendition.
    I have requested of the Department of Justice that two 
reports be made available to this committee, as has Senator 
Leahy in a separate letter, regarding interrogation methods. We 
will be pursuing that with you.
    Your role is not as extensive, but the FBI was involved in 
the arrest of Mahir Arrar, a Syrian-born Canadian citizen, 
where Canada has issued a detailed report saying that there was 
an inappropriate action by the United States.
    We are also concerned, and the oversight with you again is 
not as extensive as with the Department of Justice, as to what 
is happening in the Maggi Kahn case, where the allegation is 
made that in interrogation procedures, that there was torture.
    The Department of Justice is taking the position that they 
cannot countenance a disclosure of the interrogation techniques 
because al Qaeda might learn from those techniques how to 
prepare their agents to withstand those techniques, which is, 
in my view, an untenable position.
    If someone is challenging what has happened and makes a 
case that the line has been passed, how can we deal with it if 
he is foreclosed from testifying as to what has happened?
    So, these are a very, very wide range of subjects. Senator 
Leahy and I were discussing with the Director for a few minutes 
in the anteroom the failure of the Director to submit questions 
for the record from our May hearing.
    As disclosed, the Director made a prompt submission of 
those to the Department of Justice and they have not been 
approved or disapproved. They have simply not come forward. 
That is just not tenable and makes a major restriction and 
restraint on this oversight hearing when we do not have those 
written responses to prepare for.
    But we appreciate the work you have done, Director Mueller. 
We appreciate your availability when we called. We appreciate 
sitting down on an informal basis. But there is no substitute 
for these formal oversight hearings where it is on the record 
and the American people can have some insights as to what is 
happening on the very important job you have on protecting 
security, and also balancing civil rights.
    I now yield to the distinguished Ranking Member.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman.
    On this last point, I met with Attorney General Gonzales 
last week, along with Bruce Cohen, the Chief Counsel, and Ed 
Pagano, my Chief of Staff, and I raised this issue, that the 
Department of Justice is doing a disservice to the Director of 
the FBI in not clearing these answers quicker.
    We might get frustrated at not getting the answers, but I 
pointed out to the Attorney General that the frustration is 
with Justice when it takes that long to clear answers you have 
given them.
    I said that the alternative is going to be that when he 
comes up here next year, is that the hearing will go on much, 
much longer if we think we cannot get the answers to these 
questions.
    I mean, the other alternative is, we are here into the 
evening, asking the questions right here. We submit the 
questions as a courtesy and service to you and to the 
Department, and they are not helping.
    But having said that, I am glad we are doing this. Again, I 
commend the Bureau's skilled workforce, the agents, 
technicians, the men and women on the front line behind the 
scenes that work year after year to protect our communities.
    I also am well aware that, as the elected representatives, 
we have a solemn duty to conduct meaningful oversight. It is a 
valuable tool to make the FBI as good as the American people 
need it to be in countering terrorism, but also in 
strengthening law enforcement.
    Now, I take this responsibility seriously, as does the 
Chairman. For this reason, oversight of the FBI and the 
Department of Justice will again be one of my highest 
priorities as Chairman of the Senate Judiciary Committee during 
the next Congress as it was when I last had the privilege of 
chairing this committee.
    The recent revelation that the Bush administration, since 
9/11, has been compiling secret dossiers on millions of 
unwitting, totally law-abiding Americans who travel across our 
borders highlights the importance of diligent oversight.
    It is incredible that the administration is willing to 
share the sensitive information that they pick up on law-
abiding, innocent Americans. They want to share it with foreign 
governments, and even private employers, while refusing to 
allow the citizens it is gathered on to see or challenge the 
so-called terror score they have assigned them based on their 
travel habits and schedules.
    You might be the most law-abiding person in the world, and 
all of a sudden they do not get a job. They have no idea why 
they did not get the job, and it is because this government has 
compiled a secret dossier on them and made a mistake somewhere 
on it.
    Lord knows, with the poor track record of some of the 
departments in this administration with keeping secret the data 
they have, like the Veterans Administration and others, it is 
worrisome. If it is done poorly or without proper safeguards 
and oversight, data banks do not make us safer, they just 
further erode Americans' privacy.
    The administration has gone to unprecedented lengths to 
hide its own activities from the public, while at the same time 
collecting an unprecedented amount of data on private citizens. 
I think data banks like this are due for meaningful oversight, 
and I can assure you we are going to have it.
    One of the greatest challenges facing the FBI today is 
striking a successful balance between fulfilling its core 
counterterrorism missions while respecting and preserving the 
democratic principles and freedoms that have made America such 
a great, great, and very resilient Nation.
    Now, I have repeatedly sought, for the last couple of 
years, answers from not only the FBI, but others, regarding 
reported, and in some instances documented, cases of abuse of 
detainees in U.S. custody. Just recently, I wrote to the 
Attorney General about press reports after years of denials.
    After years of denials, the Central Intelligence Agency now 
admits the existence of additional classified documents 
detailing the Bush administration's interrogation and detention 
policy for terrorism suspects, something that the Chairman has 
already alluded to.
    When the Director appeared before this Committee in May of 
2004, I asked him if FBI agents had witnessed objectionable 
interrogation practices in Iraq, Afghanistan, or Guantanamo 
Bay. He gave a purposely narrow answer, saying no FBI agent 
witnessed abuses in Iraq.
    Well, documents released by the FBI in December of 2004 
made clear the FBI agents witnessed abusive treatment of 
prisoners at least at Guantanamo Bay, and the Director's own 
answers to subsequent questions have shed some more light on 
the subject.
    Now, the Congress and the American people deserve to learn 
the relevant facts about the Bush administration's 
interrogation policies and practices. I hope the Director will 
continue moving away from the Bush administration's policy of 
secrecy and concealment on this issue toward the responsiveness 
the American people deserve.
    In private conversation with the Director, I pointed out 
that I was gratified to see in some of the publicized instances 
where the CIA was using techniques that we would not agree to 
as Americans, that the FBI agents said that this was not 
acceptable to them and made it very clear it was not acceptable 
to them.
    It troubles me deeply, though, that 5 years after 9/11 that 
the FBI is still not as strong as it should be. The FBI lags 
far behind when it comes to the number of agents who are 
proficient in Arabic.
    The Washington Post reports only 33 FBI agents have at 
least a limited proficiency in Arabic, and only 1 percent of 
FBI agents have any familiarity with the language at all. The 
FBI is supposed to be a world-class intelligence agency, and 
this is a very significant part--especially now--of the world.
    I am worried about the FBI's new paperless case management 
system, Sentinel. We are told that it was going to cost 
American taxpayers $425 million, but still will not be 
operational until 2009.
    On Monday, the Department of Justice's Office of Inspector 
General issued a report finding that the FBI would need an 
additional $56.7 million just to pay for Phase II of Sentinel, 
and there are serious concerns about the impact this will have 
on the FBI's non-IT programs. So, we cannot afford another 
fiasco like Trilogy.
    Last, on a positive note, since 9/11 the FBI has made 
significant strides to adjust to the threats and challenges of 
our time. The Director who came in just days before 9/11 and 
was handed probably the worst challenge of any Director in the 
history of this country, in the history of the FBI, has worked 
hard. There are hard-working men and women in the FBI who work 
very, very hard to adjust to an entirely new world.
    There is work to be done. I think if the Bureau makes 
mistakes, they should acknowledge it, learn from them, move 
forward, and know that we are in a new century, a new world, 
and those will be the areas that I will be looking into as we 
go forward.
    Mr. Chairman, thank you for the additional time.
    Chairman Specter. Thank you very much, Senator Leahy.
    [The prepard statement of Senator Leahy appears as a 
submission for the record.]
    We, on occasion, turn to other members for opening 
statements. We have such a good turnout for you, Mr. Director, 
that I am reluctant to spend too much time on it. But if 
anybody has anything special that they would like to say on the 
panel, we would entertain it at this time. [No response]. I see 
everybody is anxious to hear your testimony, Director Mueller.
    We appreciate your being with us today. The Director brings 
an outstanding resume to this position. He has been the 
Director of the FBI since September 4, 2001 just one week prior 
to 9/11.
    He has a unique position, in that he has tenure. He has a 
tenured term of office, so it is longer than the presidential 
appointment, which gives him quite a degree of independence, 
which is very, very important.
    Director Mueller has an outstanding academic background. He 
is a graduate of Princeton, has a masters in International 
Relations at New York University, and a law degree from the 
University of Virginia. He has served as the leader of a rifle 
platoon in the Marine Corps in the Vietnam war, and is a 
decorated veteran.
    He has a unique record as a prosecuting attorney, having 
been an Assistant U.S. Attorney, then the Assistant Attorney 
General in charge of the Criminal Division, a very prominent 
position in the Department of Justice.
    Then after being with a prestigious Boston law firm, he 
came back to be litigator in the Homicide Section of the 
District of Columbia's U.S. Attorney's Office, which is quite a 
line of activity; real devotion to being a prosecuting 
attorney.
    As those of us who have been Assistant Prosecutors know, 
that is the best job, better than being the U.S. Attorney, 
which he later was in San Francisco. He now comes to this 
position, where he has served with real distinction.
    We welcome you here, Director Mueller, and look forward to 
your testimony.

STATEMENT OF ROBERT S. MUELLER III, DIRECTOR, FEDERAL BUREAU OF 
     INVESTIGATION, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Director Mueller. Thank you, Mr. Chairman. If I may, my 
remarks today will be 10 minutes at the most.
    Chairman Specter. Take whatever time you need.
    Director Mueller. Thank you.
    Good morning to the Senators who are here. Senator Leahy 
was here. I look forward to working with you, Senator Leahy. I 
would like to start by acknowledging and thanking you, Mr. 
Chairman, for your leadership of this Committee over the last 2 
years and, of course, I look forward to continuing to work with 
you in the new year.
    I have submitted, Mr. Chairman, a formal statement which 
provides substantial detail about the transformation and the 
accomplishments of the FBI in the 5 years since the terrorist 
attacks of September 11.
    Chairman Specter. That will be made a part of the record.
    [The prepared statement of Director Mueller appears as a 
submission for the record.]
    Director Mueller. Thank you. Thank you, sir. As reflected 
in that statement, each branch of the FBI--the National 
Security, the Criminal Investigations, Science and Technology, 
Office of Chief Information Office, and Human Resources 
branches--has demonstrated the ability and the willingness to 
embrace change for a better, stronger, and more effective FBI.
    The accomplishments set forth in my statement include 
terrorist acts that have been thwarted, espionage activities 
intercepted, cyber intrusions detected, corrupt government 
officials convicted, violent gangs dismantled, and corporate 
fraud uncovered.
    Examples of our counterterrorism efforts include: in 
Lackawanna, New York, six individuals arrested and pleading 
guilty to providing material support to al Qaeda after 
undergoing weapons training in an al Qaeda camp in Afghanistan; 
an Ohio truck driver, Lyman Farris, admitting to casing a New 
York City bridge for al Qaeda, and researching and providing 
information regarding the tools necessary for possible attacks 
on U.S. targets; and in New York as well, Mohammed Babbar 
pleading guilty to providing material support to a foreign 
terrorist organization; and last, more recently, in Torrence, 
California, four men indicted last year, charged with plotting 
to attack U.S. military recruiting facilities and synagogues in 
the Los Angeles area.
    While fighting terrorism, we continue to fulfill our crime-
fighting mission as well. Public corruption is the top criminal 
priority for the FBI. Over the last two years, our 
investigations have led to the conviction of over 1,000 
government employees involved in corrupt activities, to include 
177 Federal officials, 158 State officials, 360 local 
officials, and more than 365 police officers.
    In addition to public corruption, we continued to 
investigate, disrupt, and dismantle violent gangs, to 
investigate and combat world proliferation of child pornography 
and sexual exploitation of children facilitated by the 
Internet, and to root out fraudulent accounting schemes and 
other financial crimes perpetrated by corporate executives, as 
evidenced by the recent convictions of senior management of the 
Enron Corporation.
    These accomplishments are by no means exhaustive, but the 
do provide a vivid illustration of the extraordinary work d1 
day in and day out across all of the FBI programs by the men 
and women of the FBI.
    Along with my longer statement, I have provided the 
Committee with a time line setting forth milestones in the 
FBI's national security efforts. I have also provided an 
organizational chart that reflects the most recent changes to 
FBI executive management structure.
    The recent creation of an Associate Deputy Director and a 
Chief Human Capital Officer are positions within the FBI that 
have improved the administrative functions of the Bureau.
    In addition, we have established a Weapons of Mass 
Destruction, or WMD, mission or directorate.
    The directorate's mission is to prevent and disrupt the 
acquisition of WMD capabilities for use against the U.S. 
homeland by terrorists or other adversaries, including nation 
states.
    More than 5 years have now passed since the terrorist 
attacks of September 11, and I do believe that the FBI is 
effectively organized and strategically focused to fulfill our 
mission as both a law enforcement and a domestic intelligence 
agency.
    I believe that our successes, some of which I have just 
described, are the best evidence of our capabilities in both 
arenas. In addition, we are ever mindful that our duty is to 
protect the Nation, while at the same time preserving civil 
liberties.
    As the Committee knows, independent reviews of the FBI's 
national security programs have found that it is the FBI's 
adherence to the constitution and the rule of law that make it 
the appropriate agency to handle intelligence collection in 
this country.
    In a report issued July of 2004, the 9/11 Commission 
expressed concern that abuses of civil liberties could occur in 
a new domestic intelligence agency if one were to be created. 
In addition, the 9/11 Commission recognized the value of 
integrating, not segregating, law enforcement and domestic 
intelligence.
    The Commission noted that, because the FBI can have agents 
working criminal matters and agents working intelligence 
investigations concerning the same international terrorism 
target, the full range of investigative tools can be used 
against a suspected terrorist.
    Nearly a year later, the Commission on Weapons of Mass 
Destruction also examined the FBI's dual role. In its report in 
2005, the Commission noted that the FBI's hybrid nature is one 
of its strengths.
    In today's world of transnational threats, the line between 
criminal activity and national security information is 
increasingly blurred, as is well illustrated by the use of 
illegal drug proceeds to fund terrorist activity.
    And, like the 9/11 Commission, the WMD Commission urged 
continued coordination between the FBI's national security and 
criminal programs to help ensure continued attention to civil 
liberties.
    Mr. Chairman, although maintaining criminal justice and 
national security capabilities within the FBI is the most 
effective approach to protecting this Nation, we also recognize 
the importance of adopting best practices from other agencies.
    Indeed, we established our Directorate of Intelligence, and 
as we did so a high-level executive from Britain's MI-5 was 
detailed to us for a substantial period of time to advise us as 
we sought to improve and enhance our domestic intelligence 
program. We have found his insights and suggestions to be 
invaluable as we have grown.
    Prior to the terrorist attacks in 2001, as you have alluded 
to, Mr. Chairman, various walls existed, real and perceived. 
They no longer exist today. Legal walls that prevented the 
integration of intelligence and the criminal tools in terrorism 
investigations were broken down by provisions of the U.S. 
Patriot Act, for which credit is due to this committee, and the 
Foreign Intelligence Surveillance Court.
    Yet, we cannot overlook the importance of the breakdown of 
cultural walls that hampered coordination between the FBI, 
other members of the intelligence community, and our 800,000 
partners in State and local law enforcement.
    Since September 11, we have increased the number of Joint 
Terrorism Task Forces from 35 to over 100. We have established 
the National Joint Terrorism Task Force with 40 member 
agencies.
    We have established the Office of Law Enforcement 
Coordination, led by a former police chief, to facilitate 
information sharing and coordination between the FBI and our 
State and local partners. We have personnel assigned to the 
interagency National Counterterrorism Center.
    We have established the Terrorist Screening Center; 
established the Foreign Terrorist Tracking Task Force; 
established the Terrorist Explosive Device Analysis Center; 
established six regional computer forensics laboratories; 
established the National Gang Intelligence Center; and 
established 13 new legal attache offices in places such as 
Baghdad, Beijing, and Kabul. Finally, we are participating in 
the development of State and Regional Intelligence Fusion 
Centers along with our partners at DHS.
    The sum result of each of these initiatives is that the 
FBI's approach to our partners has shifted from providing 
information on a need-to-know basis to a need-to-share basis. 
We are well aware that our partnerships with other Federal 
agencies, State and local police, and our international allies 
have been the key to our effective response to terrorism.
    In addition to the enhancements to our coordination and 
cooperation with our partners, we have improved our internal 
capabilities as well. For example, since September 11 we have 
increased the number of language analysts by 82 percent.
    We have doubled the number of intelligence analysts from 
over 1,000 to over 2,000. Since September 11, we have 
disseminated over 20,000 intelligence information reports, over 
800 intelligence assessments, and 400 intelligence bulletins.
    We have increased from 30 percent to 100 percent the number 
of field offices with secure, top-secret space known as SCIFs. 
We have deployed nearly 30,000 new desktop computers, as well 
as high-speed, secured networks to enable personnel around the 
country to share data, including audio, video, and image files.
    Mr. Chairman, I hope that my remarks this morning, as well 
as the documents I have provided the subcommittee, adequately 
portray some of the progress of the Bureau during the past 5 
years.
    Before I take the committee's questions, I would like to 
take a moment to address the concerns that have been raised by 
Senator Leahy about the funding for the FBI's information 
technology project known as Sentinel.
    In short, there are no cost overruns and there are no 
budget shortfalls. The total projected cost of $425 million for 
all four phases of Sentinel has not changed. The recent report 
of the Office of Inspector General highlights the fact that the 
President's budget request includes $100 million of the $157 
million needed to fund Phase II of Sentinel.
    We have negotiated this request for money with the 
administration and set aside from our existing resources $57 
million that was not included in the President's request. We 
work closely with our appropriations committees to identify 
those funds and have ensured that our operational programs are 
not negatively impacted.
    As this Committee has been briefed, the Sentinel project is 
on budget, with Phase I scheduled to be delivered in spring of 
2007 as projected.
    In closing, Mr. Chairman, I would like to remind each 
member of this Committee of my standing invitation for each of 
you to visit FBI Headquarters and be fully briefed on whatever 
aspects of the FBI you would wish to be briefed on, or to visit 
our FBI offices in each of your States to observe our 
transformation for yourselves.
    It is the dedicated men and women of the FBI who have made 
our transformation possible, and we, indeed, together, are 
proud of the progress, but understand that we still have a ways 
to go.
    Again, I thank you for the opportunity to be here today. I 
am happy to answer any questions that you might have, Mr. 
Chairman.
    Chairman Specter. Thank you very much, Director Mueller.
    We will now proceed with 5-minute rounds by the members. We 
will have more than one round and see how it goes, but I know 
there will be a great many questions.
    Mr. Director, I begin with the Terrorist Surveillance 
Program disclosed on December 16 of last year. It caused a 
great deal of concern about intrusion on privacy, without the 
traditional court authorization.
    What assurances can you provide to this Committee and the 
American people that the program is worthwhile? Have arrests 
been made? Have terrorist cells been broken up? Be as specific 
as you can to tell us what the program has achieved.
    Director Mueller. I am not going to be able to satisfy, 
here, your desire for specificity. I can tell you that that 
program--
    Chairman Specter. Well, would a closed session enable you 
to be more responsive to that question?
    Director Mueller. Well, the program is classified. It is 
compartmented. I can tell you that we have given a full 
briefing to the Intelligence Committee that is responsive to 
the questions you are asking.
    Chairman Specter. We are very interested in that, Director 
Mueller, but not as interested as a full briefing to this 
committee.
    When we asked the Director of the CIA for a briefing, he 
tells us he reports to the Intelligence Committee. So, I am not 
too anxious to hear that you report to the Intelligence 
Committee. I am anxious to hear your report to this Committee 
because this Committee has oversight jurisdiction over the FBI.
    Director Mueller. I understand that, Mr. Chairman. Whatever 
briefing we give on the specifics of that program would have to 
be classified, and it is compartmented. I would be happy to, if 
given approval to give such a briefing, give you the same 
briefing that we have given to the Intelligence Committee, but 
I am not the person who makes the decision on that briefing.
    Chairman Specter. So a closed session would not do any 
good.
    Director Mueller. All I can tell you, sir, is that the 
information is classified. It is compartmented. If given the 
permission to provide such a briefing, as we have briefed the 
Intelligence Committee, we are happy to do so, sir.
    Chairman Specter. Well, my question is not too complicated. 
A closed session would not do any good.
    Director Mueller. The program is classified, sir.
    Chairman Specter. Well, I will not repeat the question. 
Senator Leahy said he might. That means he will.
    Well, we are going to pursue that, Director Mueller. That 
is not what I view as a satisfactory response by the 
administration. I understand that is the best response you can 
make, but it would do no good to go into closed session when 
you start talking about being compartmentalized. But this 
committee's oversight functions cannot be carried out with that 
kind of response by the administration.
    Moving on, the Patriot Act was worked out, after very 
extensive negotiations, between this Committee and the 
administration. Then the President issued a signing statement 
saying that the President would respond to the reporting 
requirements as the President saw fit, in line with his 
constitutional responsibilities.
    I believe that that is an unconstitutional response because 
the Constitution says Congress passes laws and submits them to 
the President for a signature or a veto, especially in the 
context where we have negotiated it, and where there has been a 
give and take between the administration and the Congress as to 
what the Patriot Act ought to consist of.
    But the question that I have for you is, have the reporting 
requirements of the Patriot Act been fulfilled or has the 
executive branch withheld information based on their contention 
of inherent Article 2 power?
    Director Mueller. I have no reason to believe that we are 
not fulfilling the requirements of the Patriot Act with regard 
to reporting. I have heard nothing with regard to not providing 
that information, as is required under the Patriot Act, 
regardless of the basis upon which that might be done.
    Chairman Specter. Well, that, Director Mueller, is an 
answer in the negative. You do not have any reason to believe 
that.
    Do you have reason to believe that the Patriot Act has been 
fully complied with on the reporting requirements?
    Director Mueller. Yes. Well, I would say I have not looked 
at the reporting requirements and not, myself, looked and seen 
what has been filed. I would be happy to do that. I have every 
reason to believe that, yes, we are putting together the 
information and providing the reporting as requested.
    Chairman Specter. Well, we would appreciate it if you would 
look at them and give us your assurances on that question.
    Director Mueller. All right.
    Chairman Specter. Before my red light goes on, I have one 
further question. That is, there was an extensive study made as 
to what intelligence analysts are doing. This goes to the issue 
as to whether the FBI is really moving into the intelligence 
field. The analysts are allegedly spending only half their time 
on analysis and not really working through the 
counterintelligence phase. Is that true?
    Director Mueller. No, I do not believe that is true. I 
think that was true at the outset, certainly right after 
September 11. I think we have grown substantially, both in the 
number of analysts and the quality of the analysts that we have 
hired.
    Chairman Specter. Director Mueller, you were right in the 
midst of finishing the answer to the question as to whether 
your analysts are really full-time on the job.
    Director Mueller. I would say, again, Mr. Chairman, there 
will be anecdotes where there is an analyst here and an analyst 
there who is not, but we have, since September 11, established 
field intelligence groups in every one of our 56 field offices 
to which the analysts are assigned.
    We understand the necessity of having analysts be somewhat 
detached so they can do the analytical work that is necessary, 
and I believe we are effectively utilizing analysts at this 
point in time. I do believe that studies have been done by 
others who would support that.
    That does not mean that we do not have additional work to 
be done, but we have come a long way since September 11 and we 
are using analysts the way analysts are meant to be used.
    Chairman Specter. Director Mueller, check on the Department 
of Justice survey of last year of more than 800 FBI analysts, 
two-thirds of those employed with the FBI. The study found 
that, on average, the analysts were spending only half-time 
actually doing analytical work. Would you check on that and 
supplement your answer?
    Director Mueller. I will check on that. Yes.
    Chairman Specter. Thank you.
    Director Mueller. Thank you, sir.
    Chairman Specter. Senator Leahy?
    Senator Leahy. Thank you.
    Director Mueller. I am sorry. Senator Specter, can I 
respond to one other thing that I learned while the lights were 
out?
    Chairman Specter. Yes, of course you may.
    Director Mueller. That is, in terms of the reporting 
requirements under the Patriot Act, we are up to date on our 
reporting requirements under the Patriot Act. In other words, 
in response to your question as to, were we withholding 
information as a result of the signing statement of the 
President, I am saying, as far as the FBI is concerned, in our 
reporting requirements, we are fulfilling each one of our 
reporting requirements that are required by the Patriot Act.
    Chairman Specter. You are giving your assurance as Director 
that the reporting requirements of the Patriot Act are being 
complied with, and the President or the executive branch has 
not exercised any of the limitations included in the signing 
statement to withhold information?
    Director Mueller. Not as to the FBI. I can speak as to the 
FBI only.
    Chairman Specter. And they have not gone through the 
Department of Justice, like the response to written questions 
delayed until last week, before responding to my inquiries?
    Director Mueller. Well, they do go through the Department 
of Justice. Excuse me just one second.
    [Pause]
    We would have to check with Department of Justice and make 
certain they are out of the Department of Justice and to the 
committee, but we have fulfilled our reporting requirements.
    Now, you make a good point in terms of, it does go through 
the Department of Justice, and I would have to check to make 
certain that they have been forwarded by the Department of 
Justice.
    Chairman Specter. Is your coordination with the CIA as good 
as your coordination with the Department of Justice?
    Director Mueller. They are both equally good, Mr. Chairman.
    Chairman Specter. I cannot hear you.
    Director Mueller. They are both equally good. We have very 
good relationships both with the CIA, as well as the with the 
Department of Justice.
    Chairman Specter. Equally good and equally bad.
    Senator Leahy?
    Director Mueller. I would characterize the relationships as 
exceptionally positive and mutually supportive.
    Chairman Specter. I raise it in a serious vein because your 
communications with the Department of Justice do not appear to 
be too good. You submit answers to questions in July, we get 
the responses on November 30, 7 months later. We are talking 
about reporting requirements. You cannot be sure as to what 
happened after you report through the Department of Justice.
    That raises a very serious question as to communications. 
There are a lot more reasons to have difficulties communicating 
with the CIA than with the Attorney General. So, check it out 
and let us know.
    Director Mueller. I will check it out, Mr. Chairman. I will 
do that.
    Chairman Specter. Yes.
    Senator Leahy?
    Senator Leahy. Would you please make it a point to have 
somebody get back to both Senator Specter and myself and tell 
us, on the reporting, whether it ever got out of the DOJ?
    Director Mueller. We will check on that.
    Senator Leahy. Thank you.
    I do not think I am unique in saying--not a unique 
American--that I am shocked at the revelation that, since 9/11, 
the U.S. Government has been secretly assigning terror scores 
to millions of law-abiding Americans who cross our borders. 
Like so many other millions of Americans, I cross our border 
quite often, sometimes driving an hour from my home in Vermont 
into Canada.
    Now, data mining technologies have a place in our security 
regimen. I am not denying that. But the Department of Homeland 
Security's Automated Targeting System, ATS, shows what some of 
the dangers can be in just blanket surveillance of law-abiding 
Americans.
    There have been press reports that the Department of 
Homeland Security shares information contained in this database 
with the FBI and others. If you do this without proper 
safeguards and oversight, then it does not make us more secure, 
it just erodes our liberties. We will ask further questions 
next year.
    Can you please explain to the American people why the 
administration is secretly compiling dossier's of people's 
travel habits and then assigning terror scores to them? For 
example, when I drive across the Canadian border to visit 
relatives.
    Director Mueller. Well, Senator, I am not familiar with the 
program, therefore, I am not in a position to describe it and 
to be able to report on it. It is a DHS program. We may well 
get information from that program.
    Senator Leahy. I want to back up. You mean, they are 
assigning terror scores to every single American, law-abiding 
though they may be, and they are not passing those on to the 
FBI?
    Director Mueller. I am not certain what information they 
are passing on, Senator Leahy, and I would have to get back to 
you on that. My understanding is, from the same reports you 
have, DHS uses this at the borders. And they may well pass on 
information to us, but I am not familiar with the conduit of 
that information or the basis for developing the scores, and I 
would have to get back to you on that.
    Senator Leahy. Are you aware of a legal authority for this 
program?
    Director Mueller. I am not. I do not know what the legal 
authority is.
    Senator Leahy. Thank you.
    During the May 2 oversight hearing, you testified about the 
Investigative Data Warehouse, IDW.
    Director Mueller. Yes.
    Senator Leahy. This was put up after 9/11. It now contains 
over half a billion FBI and other agency documents, with nearly 
12,000 users, Federal, State, local law enforcement who can 
access this through the FBI network.
    Now, like you, I have long advocated to use technology in 
the FBI to carry out your programs. But I am worried, partly 
because I read about the ATS program and their data mining. 
Does this have adequate security? Does the IDW database share 
information or otherwise interface with the ATS data mining 
program?
    Director Mueller. The ATS data mining program? I am not 
familiar with what you are referring to, sir.
    Senator Leahy. We were just talking about the ATS.
    Director Mueller. Do you mean DHS?
    Senator Leahy. What DHS calls ATS. I realize we are using 
acronyms. This is the one that checks on everybody crossing our 
borders. You have the Department of Homeland Security's 
Automated Targeting System. Does your database interface with 
that?
    Director Mueller. I do not believe so, but again, I would 
have to go back and check. I do not believe so.
    Senator Leahy. Well, this is very important to me. I wish 
you could get back to me in the next few days and let me know 
directly.
    Director Mueller. I will do so. I will do so.
    Senator Leahy. Because there are also Federal privacy laws 
here.
    Has the Bureau filed a notice in the Federal Register about 
a program publicly released, a privacy impact statement, for 
IDW?
    Director Mueller. I know we have a privacy statement. I 
would have to check as to whether it has been publicly 
disclosed. We adhere to the requirements of the Privacy Act.
    Again, I would encourage you and your staff to visit us and 
we would be very willing to give you a full briefing on what 
IDW is, what the records are in IDW, and the intersection the 
IDW has with other such databases.
    Senator Leahy. Yes. Because I am not sure I am getting the 
answers here, and I am not sure you are prepared to give the 
answers, partly because, as you said, you are not sure just 
what goes back and forth there.
    I really think this is extremely important, because if we 
are having database after database after database with things 
that talk about Americans, and then we see what happens when 
there are mistakes--sometimes getting in airplanes, Senator 
Kennedy, the second most senior member of the U.S. Senate, has 
been stopped several times boarding a flight that he has been 
taking for 40 years back home to Massachusetts because he is on 
some terrorist watch list.
    Congressman John Lewis, who faced enough problems during 
the civil rights era, has been stopped. A one-year-old child 
has been stopped because the child mistakenly gets on and the 
parents are not allowed on until they get a passport for the 
child.
    Nuns have been stopped. Having gone to Catholic school, I 
can sometimes understand, but not at this level. Maybe there 
was terror struck into us at the age of 8, 9 or 10 by them, but 
they should not be on a terrorist list.
    I just worry, as we get these intersected, you are going to 
have kids who are looking for college loans, you are going to 
have people who are trying to get a job, somebody trying to get 
a security clearance, and they are told, no, we cannot tell you 
why you are not getting it, and somebody is going to be 
mistakenly on a list. So, I raise this because we will have a 
lot of questions next year.
    We will do the review down at the Department headquarters, 
but we will do a review that the American public will know. We 
will do it carefully so that the classified information is not 
released, but there is a growing concern in this country that 
our government knows too much about us and may be doing things 
with that information that none of us want done. I am talking 
about the millions upon millions of totally law-abiding 
Americans, like that 1-year-old child.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Leahy.
    We will now proceed, on the early bird rule, calling on 
Senators in order of arrival.
    Senator Sessions, you are recognized.
    Senator Sessions. Thank you.
    Director Mueller, congratulations on your hard work. I know 
there are problem areas, and I will ask you about some of 
those, but you have--indeed, every U.S. Attorney's Office has--
a terrorist specialist in every field office of the FBI, which 
covers the entire United States.
    The speed and accuracy and responsiveness of FBI agents to 
information that might connect to terrorism, would you not 
agree, is light years ahead of what it was before 9/11?
    Director Mueller. Yes, sir. As Senator Leahy pointed out, 
we did not have databases such as IDW on September 11, the 
ability, as some would say, to connect the dots. We do have 
that ability today and it is attributable to the growth of not 
only the database structure, but also of the networks and the 
ability to communicate that information and make it available 
to persons whose business it is to prevent terrorist attacks.
    Senator Sessions. And the wall that separated the FBI and 
CIA was removed by the Patriot Act. Has that enabled you to be 
more effective in protecting this country from terrorist 
attack?
    Director Mueller. Of all the things that have occurred, 
pieces of legislation that have been passed since September 11, 
the Patriot Act is the one piece of legislation I would point 
to as making a dramatic, substantial difference in our ability 
to work cooperatively with each other in sharing information 
and preventing terrorist attacks.
    Senator Sessions. Well, I think that is quite clear. The 
American people want more. They also will criticize you for not 
maintaining information and not sharing it with the person at 
the airport so they can identify somebody who might be a 
terrorist if they happen to get by the system, and then they 
will complain that you are maintaining information that somehow 
might oppress somebody's rights.
    Let me just say this to you, just briefly, on that subject. 
It is easy to criticize your program, the Automated Targeting, 
the TSP, the warehouse, the IDW, and these efforts to make our 
aircraft safer, to make us safer from those who would come into 
this country to attack us.
    But let me ask you, when these programs are established, 
just briefly, are legal counsel consulted before these programs 
are initiated, whether it is in the FBI, DOJ, or Department of 
Homeland Security?
    Director Mueller. Absolutely. Every one of the databases 
and programs is reviewed by legal counsel. We have a specified 
privacy officer whose responsibility it is to do that. The 
Department of Justice has a Privacy Office whose responsibility 
is to do much the same thing. We had, in the last month, the 
members of the Privacy Board come and review what we were doing 
and they were provided briefings on IDW and the other databases 
that we maintain to do our work.
    I might also add that with regard to IDW, we did show and 
did give access and did a briefing on IDW to the media, so we 
believe that it is an appropriate database, and we also believe 
that it passes all privacy concerns.
    Senator Sessions. Well, if you do not maintain those 
records and somebody slips by and kills a lot of Americans, you 
will be hauled in here to be criticized for it, there is no 
doubt about that.
    And you are prepared to brief the Committee on the programs 
under your jurisdiction, if we have additional questions, in 
confidence if that is appropriate?
    Director Mueller. To the extent that I can, in confidence, 
but if it is classified that might present an additional 
hurdle. But I am prepared to brief whichever committee--
including, quite obviously, the Judiciary Committee--to the 
extent that I am allowed to under the applicable rules.
    Senator Sessions. Well, this is what I would suggest. I 
suggest you continue those programs that you believe are 
appropriate and that you believe are legal and the counsel have 
approved. If a court says it is not proper, I would expect you 
to stop it, and I know you would.
    I would just say this. I would wait to see what Congress 
does. My impression is, the pattern in Congress is to bring 
officials up and accuse them of all kinds of things, but then 
not offer legislation to stop it. Is it not true that if 
Congress disapproves one of these programs, we can shut off 
funding and require it to be stopped?
    Director Mueller. I believe that to be the case, sir.
    Senator Sessions. So it will be up to us. If we think 
something is going wrong, let us have a debate on it. Let us 
have legislation offered that will stop it. Then I would expect 
you to explain to the American people what risk this Nation is 
incurring if it is stopped.
    Director Mueller, I remain concerned about the 
interoperability of the Crime Information System computers 
between Homeland Security and the FBI, that you managed much 
of. I have asked you about this previously.
    For example, we now believe that there are 597,000 
absconders on immigration charges, people who were arrested and 
have absconded. Now, if you are caught in Alabama or 
Massachusetts for reckless driving and you do not show up for 
court, your name goes into the system. Petty larceny, your name 
goes into the system.
    But the fact is, only 75,000 of the 597,000 absconders, as 
I understand it, have been entered into this system. You have 
committed to creating an interoperable system that somehow will 
work. Where are we on that?
    Is it not true that if we really expect the American people 
to believe that we are serious about immigration enforcement, 
those who have absconded, jumped bail, have not shown up for 
their deportation or their hearing, that they ought to be 
entered into the NCIC so that if they are arrested anywhere 
else in the country they would be known to be illegally here 
and be subject to deportation?
    Director Mueller. My understanding, Senator, is that in 
August of 2003, NCIC established an immigration violator file. 
As of November 20--
    Senator Sessions. NCIC is under your jurisdiction?
    Director Mueller. It is. It is. It is, quite obviously, a 
system that State and local law enforcement, as well as Federal 
law enforcement, use to determine whether the person they are 
looking at has a record or is otherwise being pursued by 
Federal authorities.
    My understanding is that, as of November 20, there were 
over 200,000 records in that database. Of those, over 100,000 
are deported felon records and another 107,000 are absconder 
records. So my belief is that NCIC has a number of those 
absconder records.
    I do not know what portion of the universe of absconder 
records there may be in DHS, but my belief is that, to the 
extent that DHS wishes us to put those records in NCIC, they 
are being put in NCIC.
    Senator Sessions. Well, my records indicate only 17 
percent, 75,000 of the 500,000 entire population of absconders, 
are now in NCIC.
    Director Mueller. We would have to reconcile the figures 
you have, sir, with the figures that we have. I would be more 
than happy to do that so we are both on the same page.
    Senator Sessions. Thank you.
    Chairman Specter. Thank you, Senator Sessions.
    Senator Kohl?
    Senator Kohl. I thank you, Mr. Chairman.
    Director Mueller, I would like to discuss the alarming 
increase in violent crime across our country. Unfortunately, no 
city has been afflicted more in the past year than my own City 
of Milwaukee.
    Violent crime in Milwaukee has risen 32 percent in 2005; 
robberies were up 36 percent; aggravated assaults were up 
nearly 32 percent; and most concerning of all, homicides 
increased by 40 percent.
    We all agree that we must find out what is causing this 
problem and fix it, and that means Federal, State and local 
officials working together to get the problem under control.
    Part of the problem is that we are not giving our States 
and localities the help that they need. Year after year, we see 
a concerted effort by this administration to end the COPS 
program and gut funding for juvenile justice and prevention 
programs.
    Virtually everyone in the law enforcement community agrees 
that this has been a major contributing factor to the rise in 
violent crime. For exmaple, the Milwaukee police department 
received $1 million from the COPS program in 2002, but by last 
year they had gone down to no funding at all for this program.
    As a result, between 2002 and 2005, the Milwaukee police 
department's forces were reduced by 55 police officers, leaving 
it with nearly 200 vacancies in a force of 2,000. Years of 
decreases in funding have led to fewer cops on the beat and 
increases in violent crime.
    Another part of the problem is the lack of juvenile 
prevention at intervention programs. The deputy police chief in 
Milwaukee was recently quoted as saying, ``We have a lot of 
young people involved in robbery, some are 10 and 11. A lot of 
the kids that we see never know anything but violence.''
    Juvenile crime accounted for a large part of the recent 
increase in overall crime in Milwaukee in 2005, and again it 
has come on the tail end of the administration's efforts to 
eliminate prevention programs that have proved successful in 
the past.
    While FBI resources have been diverted to focus on the 
threat from terrorism, and I understand that, nevertheless, 
this administration has not replaced those resources and now we 
are faced with the results of neglecting these problems. We 
need to make our communities safe again.
    So I would like to ask you four questions, and perhaps you 
can respond to each one. First, will you please commit to 
coming to Milwaukee soon to discuss the dramatic rise in crime 
with State and local officials to see what can be done to help 
get this problem under control?
    Second, in July you said that the Bureau was analyzing 
possible causes of the surge in violent crime across the 
country. Will you commit to direct those undertaking that 
effort to focus specifically on what is going on in my City of 
Milwaukee, or if that overall report has already been 
completed, will you commit to taking a look at Milwaukee, 
giving me regular updates on your progress?
    Third, if the need exists, will you commit to adding 
Federal agents to the Milwaukee area on a permanent basis? And 
fourth, Director Mueller, without commenting on any specific 
program, would you agree that an increase in the State and 
local police forces and a renewed focus on juvenile prevention 
programs must be a part of any strategy to address this problem 
not only in Milwaukee, but across our country?
    Director Mueller. Senator, I share your concern about the 
spikes in crime around the country. As the Chairman pointed 
out, I spent time as a homicide prosecutor here in Washington, 
DC. The one thing you take away from that, is the devastation 
to a community from violent crime, particularly homicides and 
assaults.
    We have, in areas where we have ratcheted back--we have 
ratcheted back and had to by reason of our priorities--the 
number of agents we have addressing the drug problem, smaller 
white-collar criminal cases, but we have not allocated 
resources away from violent crime.
    To the contrary, I have tried to build up our contributions 
to reducing violent crime in our cities through the Safe Street 
task forces, cold case squads, and the like. I believe that the 
future and the success is dependent on working closely together 
on task forces with State and local law enforcement, as well as 
Federal agencies, not just the FBI, but ATF and the like.
    I support the funding for State and local law enforcement 
agencies. I would like to see that funding, in part, directed 
towards the task force concept because I believe we could be 
more effective together when we work on task forces.
    In response specifically to your questions, I was recently 
in Milwaukee. I would have to see when my schedule will allow 
me again to be in Milwaukee. I know the Department of Justice 
has teams going out to various cities--I am not certain whether 
Milwaukee is one of them--to look at the causes of crime. We 
have agents who are participating in that. I will take a 
specific look at Milwaukee, but I cannot promise, necessarily, 
that I can be in Milwaukee in the near future.
    As I indicated as to your second question as to what is 
being done to look at the causes of this uptick, I know 
Department of Justice is looking at this, with teams traveling 
around the country. I would be happy to update you on their 
findings.
    I cannot promise additional Federal agents. I often get 
requests. There probably is not a Senator here that would not 
want more FBI agents in their particular States.
    I will talk to our SAC out there to get a better view of 
what is happening there and make certain--and I believe it is a 
high priority on his list, but I will again talk to him--but 
cannot make a promise to give additional agents there at this 
point in time.
    Last, I think I addressed the fact that I do believe that 
there has to be a coordination in terms of funding of State and 
local police departments. My hope is that funding in some way 
ties in with State and local police officers being participants 
and task forces.
    Too often, the State and local police officers--and 
rightfully so--have a very realistic concern about issues 
within their communities. The first officers that are taken 
off, are those taken off of task forces.
    But I think task forces are one of the best tools for 
addressing crime, cyber crime, and particularly violent crime. 
I am supportive of funding so that we can work more closely 
together with State and local law enforcement in these areas.
    Senator Kohl. Thank you very much.
    Chairman Specter. Thank you, Senator Kohl.
    Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman. I wanted to ask 
you a little bit about the violence that we are seeing along 
our border between the United States and Mexico. Particularly 
of concern to me is the violence among drug cartels in Nuevo 
Laredo and the various kidnappings and other problems 
associated with that violence.
    I have discussed this matter with our ambassador to Mexico, 
Tony Garza. I have addressed it with Attorney General Gonzales. 
And, as you probably know, he sent a Violent Crime Impact Team 
to Laredo. I have also discussed this with officials from the 
Government of Mexico.
    First of all, can you confirm for me that the FBI does, in 
fact, have membership on the Violent Crime Impact Team?
    Director Mueller. I believe we do. I would have to check on 
that. I know we are participating in a number of task forces 
down there. I would have to get back to you as to what our 
participation is. I believe we probably are, but I would have 
to get back to you and confirm that we are.
    Senator Cornyn. I cannot imagine you would not be, but 
apparently there were some questions raised. I would appreciate 
that.
    Director Mueller. That is fine.
    Senator Cornyn. Are you prepared at this point to update us 
on what is happening as far as the kidnappings of American 
citizens in Nuevo Laredo?
    Director Mueller. Without getting into the details because 
it is an ongoing investigation, if you are talking about a 
recent, relatively highly publicized kidnapping, we are still 
participating in the investigation of that. It was not totally 
successful, but it has had some limited success.
    Senator Cornyn. From a 30,000-foot level, could you give us 
a general idea about the FBI's participation?
    Director Mueller. We participate on Safe Street task 
forces. Whenever there is a kidnapping, we specifically will 
have agents participating in the investigation. From 30,000 
feet, the view does not look good of what is happening in 
Laredo Nuevo.
    Where there are incursions into the United States, we quite 
obviously have jurisdiction to act, and we act as quickly as we 
possibly can. We will in put whatever resources are needed to 
address the investigation.
    Our concern is reciprocity across the border and having 
identified individuals with whom we can exchange information 
and work cooperatively because of the difficulties of law 
enforcement, and indeed the military, on the other side of the 
border operating.
    My hope is that, with the elections over and the new 
government in, that with a pledge to address violence of the 
cartels, we will enhance our ability to have counterparts 
across the border which will enable us to work together to 
address the problems there.
    Senator Cornyn. Hope springs eternal, I guess. That is 
obviously a huge concern.
    At your last appearance, on another note, we discussed a 
report that found significant non-compliance with the Attorney 
General's guidelines in the use of confidential informants.
    You will recall, the report found one or more guidelines 
violations in 87 percent of the confidential informant files 
examined, including a 49 percent non-compliance of FBI agents 
giving proper instructions to informants.
    There have been a number of high-profile cases. In my 
State, a large case in Ft. Worth had a problem with the misuse 
of informants in which the IG found misuse of informant Katrina 
Leong--I believe I am pronouncing that name correctly--a 
Chinese spy. I have been seeking information about an ICE 
informant who had been involved in multiple murders while under 
ICE's control.
    Can you tell us what has been done in the Agency to improve 
compliance with the guidelines? Are there any other tools that 
you need in order to effect compliance?
    Director Mueller. There are several levels of concern with 
regard to informants. Of the cases you mentioned, one of them, 
the ICE case, is not ours. That is a DHS case, so I would not 
be familiar with that.
    Katrina Leong was a source for a number of years in the 
counterintelligence arena, but that case was handled out of 
California and it has gone through the judicial system there. 
It pointed out weaknesses in our handling of informants that we 
have remedied in the meantime, not only in the 
counterintelligence program in terms of our review of our 
assets, but also across the board.
    The IG pointed out, in a number of instances--those you 
alluded to--where our files were not being documented. The 
scrutiny was not being given. We have put into place programs 
to assure that that is done with appropriate follow-up.
    Last, we have in development now a software package that 
will enable us to do assessments and to do what in the past has 
been an extraordinary amount of paperwork, but do it digitally 
in a secure system, to give us a better overview of the sources 
that we use across the board.
    So both in terms of isolated incidents, we have changed our 
procedures to minimize the chance of that happening again. In 
terms of documenting the files and doing what is necessary to 
assure that we are documenting what we are doing with files, we 
have put into place procedures and we are moving ahead with a 
digitized system that will better enable us to have oversight 
over the program as a whole.
    Senator Cornyn. Thank you. Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Cornyn.
    Senator Feinstein?
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Welcome, Mr. Mueller. I listened very carefully to your 
response to Senator Kohl. I recall, the last time we met I 
asked you about the priorities of the FBI. You listed 
combatting significant violent crime as number eight out of 
eight priorities. There are 28,331 fewer criminal cases opened 
by your Agency in 2004 than in 2000. That is a drop of 45 
percent.
    Violent crime is rising in the United States, by your own 
statistics, at its highest rate in 15 years. Local and State 
law enforcement officers are telling your Inspector General 
that violent crime is getting worse and there is reduced FBI 
involvement in violent crimes in their jurisdictions. I can 
tell you this is true in the big cities in California.
    I think you have got a real need for a mission 
reevaluation. I think you have to take into consideration, the 
President has zeroed out the COPS program. JAG burn grants are 
gone. Gang crimes are substantially on the rise. I am very 
interested in this, so I watch for FBI activity in this area 
and have seen very little.
    I believe the President, in 2007, added one agent. I 
believe your funding level for FBI criminal case agents has 
decreased by almost 1,000 agents, or 18 percent, since 9/11. I 
think you have got a real problem on your hands, and I question 
your priorities in that regard. I think violent crime has to be 
raised in the FBI priority list.
    Would you comment?
    Director Mueller. Yes, Senator. The priorities on the 
national security side are counterterrorism, preventing another 
terrorist attack, counterintelligence, with which you are 
familiar in terms of the service on the Intelligence Committee 
and the importance of that program, given the threats from 
outside the United States, and cyber crime and attacks on our 
infrastructure, and the like. Those are the three national 
security priorities that we have.
    On the criminal side, the first priority is public 
corruption, in the belief that if we do not investigate these 
cases, they perhaps will not be investigated. Second, is civil 
rights. The third priority is organized crime, because if we do 
not do organized crime, organized crime crosses borders. Those 
in local jurisdiction do not have the wherewithal to address 
organized crime. That is our No. 3 criminal.
    Senator Feinstein. Could I say one thing on that point?
    Director Mueller. Yes, ma'am.
    Senator Feinstein. Gangs are killing more people in this 
country than organized crime ever did, or ever will. That is 
just a fact. They are spreading all across the country. They 
are being operated out of prisons. It is an extraordinarily 
serious problem. I think, to have this on a low level, is a big 
mistake.
    Director Mueller. In other words, organized crime and 
violent crime are the two priorities we have and they intersect 
with each other because you can have organized gangs of 
criminals that we address under RICO and those tools that we 
have used traditionally in the past.
    The other priority is, there are substantial white-collar 
criminal cases. If we were not doing the Enron cases, if we 
were not doing the Worldcom cases, if we were not doing the 
Quest case, they would not be done.
    Consequently, I believe violent crime is tremendously 
important. My hope is that we will have, and get in the future, 
additional resources to put in that priority. But I think our 
priorities are appropriately aligned, although I would very 
much appreciate additional resources to be put into the violent 
crime arena.
    Senator Feinstein. Well, this Senator does not agree with 
the priorities, let me just put it that way. I represent a big 
State. It is a deep concern in big cities. I want to register 
that with you very publicly. I think the FBI has a role in 
fighting violent crime, crime that is taking place on a major 
scale. So, I will leave you with that.
    Let me, in response to the Chairman's questions, ask you a 
couple of questions that I think you probably can answer here.
    Have terrorist acts been prevented as a result of FBI 
activities?
    Director Mueller. Yes.
    Senator Feinstein. Terrorist acts in this country?
    Director Mueller. Yes.
    Senator Feinstein. Can you give us a number?
    Director Mueller. I can give you examples, not necessarily 
a total number.
    Senator Feinstein. Well, would you give us what you can in 
this venue, please?
    Director Mueller. I can tell you the Torrence case that I 
mentioned, which is a California case. Individuals who obtained 
weapons, had developed an al Qaeda-like philosophy, although 
had no ties to al Qaeda, operating at the outset in prison 
until several of them got out.
    Last year, they came together and robbed gas stations to 
obtain money to obtain weapons. They were in the process of 
obtaining weapons so that they could, on September 11 of last 
year, go into military recruiting stations and shoot them up, 
and then on Yom Kippur, as worshippers came out of synagogues, 
shoot up the worshippers. That was a terrorist attack that was 
well along the way to being undertaken. That is one example.
    Another one that would have an impact on this country is 
the case where 24 individuals were arrested in August in the 
U.K. Their plans were to obtain explosives and get them on 
airplanes and blow the airplanes out of the skies, along the 
lines of what happened with Pan Am 103.
    That is a case that we worked with the CIA, we worked with 
our counterparts in the U.K., MI-5, Scotland Yard, and with our 
counterparts in other countries. If that attack had been 
allowed to go forward, it would have been devastating on the 
United States and on the United States' citizens. Those are but 
two.
    There are a litany of them. I believe I listed a number of 
those in my longer statement of similar cases that we have 
addressed since September 11. I can name, just off the top of 
my head, the group in Lackawanna, the group in Northern 
Virginia.
    There was a group out of Portland, Oregon, although that 
group was training here to go into Afghanistan to fight. So, I 
listed a number of them in my longer statement, but I can 
provide you a fuller statement if you would like.
    Senator Feinstein. I pick it up from the Intelligence 
perspective, but I think it is also important that this 
Committee have an understanding. My time is up, but I would 
just ask you to watch that violent crime rate. This affects 
regular Americans every day, shopping, walking, going to the 
park. It is a real problem. The FBI has a role in it, and I do 
not think you can abdicate it.
    Thank you, Mr. Chairman.
    Director Mueller. I absolutely agree with you. We are not 
abdicating it. I am looking for ways to enhance our presence.
    Chairman Specter. Thank you, Senator Feinstein.
    Senator Grassley?
    Senator Grassley. Director Mueller, I just have one issue I 
want to discuss with you in the 5 minutes I have, and that is 
the anthrax investigation. I wrote the Attorney General October 
23 about your Agency's refusal to brief Congress on the 
investigation into the 2001 anthrax attacks, which obviously 
targeted this Congress, and specifically Senator Leahy.
    It has been 5 years since those attacks and over 3 years 
since any Congressional briefings on the investigation. This 
investigation is one of the largest efforts in FBI history, I 
am told.
    Congress has a right and a responsibility to get some 
detailed information about how all those resources are being 
used and why there seems to be so little progress in the case.
    Several of my colleagues on the committees--
    Feinstein, Schumer, Feingold--have all agreed to co-sign a 
briefing request letter that I have circulated, along with 
Congressman Reichert of New Jersey. I hope that Senator Specter 
and other members of the Committee would also sign the letter.
    But regardless, I need to keep asking these questions until 
I get some answers. I asked dozens of questions in my letter to 
the Attorney General. I do not intend to repeat all those 
questions today, but I will be submitting those questions for 
the record. I believe this Committee has an obligation to make 
sure that it gets full and complete answers to those questions.
    The main reason that the FBI has cited for refusing to 
brief Congress is the fear of leaks from members and staff of 
Congress. But one of the issues that we in Congress need to 
investigate is actually the leaking by the Justice Department 
and the FBI.
    As you know, Steven Hatfeld is suing the FBI for leaking 
his name to the press as a person of interest in the 
investigation. He is also suing the New York Times. We recently 
learned that two of its sources for the New York Times story 
were FBI agents.
    So could you please explain why the FBI can leak 
information about someone who has never been charged with 
anything to the New York Times, but the FBI will not brief 
Congress about one of the most extensive FBI investigations 
ever?
    Director Mueller. Senator, I abhor leaks, whether it be 
from the FBI or any other entity. I have taken steps, when I 
have learned of leaks, to investigate such leaks.
    My understanding is that your letter did go to the Attorney 
General and the Attorney General responded by letter of October 
31 in which the Justice Department took the position that, 
according to longstanding DOJ policy, where you have a grand 
jury investigation and nonpublic information has been developed 
in the course of the investigation, that that type of extensive 
briefing could not be given.
    We periodically meet with the victims of that horrific 
occurrence and provide them some insight into the allocation of 
resources to successfully bring the persons responsible to 
justice.
    We have offered that to other victims, or those such as 
Senator Leahy and Senator Daschle, but this is not the type of 
briefing I know you are asking. But I do believe that that is 
the subject of the letter from the Attorney General on October 
31.
    Senator Grassley. How many FBI personnel have been 
reprimanded or punished for leaking information in the anthrax 
case, and how many leaks on this case from the FBI or the DOJ 
sources do you think occurred?
    Director Mueller. I believe there are at least two leaks, 
based on what I have read in the newspapers as well. That 
information comes from others, or persons to whom we would not 
have had access in our investigation. Specifically, I am 
talking about the reporters themselves. No one has at this 
point been punished because we have not been successful in 
identifying the source of some of those leaks, but that is not 
for want of trying.
    As to the underlying investigation, I will tell you that we 
are still pursuing it as forcefully as we possibly can. We have 
17 FBI agents still assigned to it, and 10 postal inspectors 
assigned to it. It is ongoing and we will continue to press 
forward.
    Senator Grassley. Before my time is up, there are some 
questions in that letter to the Attorney General that do not 
involve grand jury investigation.
    I am going to give you a clip from Joseph Billy, the FBI 
Assistant Director for Counterterrorism, that said, ``I am not 
aware of a declination to brief the Congress on the anthrax 
investigation.'' Another quote was, ``I believe that we have 
regularly kept those that we are accountable to informed about 
the progress in the case.''
    This looks like an example of the FBI's left hand not know 
what the right hand was doing. You are telling me that you will 
not answer questions about the anthrax investigation, while 
someone else is telling the public that you are keeping us 
fully informed. Could you set the record straight? Which is it?
    Director Mueller. I would be happy to look at that clip. I 
was not aware that there was that clip out there, Senator.
    Senator Grassley. He is the FBI Assistant Director of 
Counterterrorism.
    Director Mueller. Yes.
    Senator Grassley. I do not have another question, but 
Chairman Specter, I think we have a right to be briefed. I hope 
you will take a look at my letter and see if we can get a 
briefing on this anthrax investigation.
    I think we owe it to people like Senator Leahy, who have 
put their lives on the line or had their lives threatened, at 
least, to be brought up to date while this was going on.
    Chairman Specter. Senator Grassley, I think you are right. 
I have it on my list for a second round, which I do not have to 
pursue since you have done such a good job. I will be glad to 
co-sign your letter.
    Senator Leahy. I have avoided making many public comments 
about the anthrax case, especially on the five-year 
anniversary. I might note, at least two people who touched the 
envelope that I was supposed to open died. Five people died in 
all. My family was put under police guard until we said we 
really did not want that. It disrupted our lives enormously.
    I read in the paper, the FBI flew down the families of 
victims to Washington for a briefing. I know I was not invited 
to that briefing. I came out unscathed. The letter that I was 
supposed to open stopped before it got here.
    My sorrow is mostly for those who died just doing their job 
in trying to deliver a letter to me. But I also know how 
disruptive it was of my family and my own life. For me 
personally, I can handle that. I faced death threats and all 
when I was a prosecutor.
    But I am not satisfied with this investigation. I am not 
satisfied with the briefings I have had. I am not satisfied 
with the information I have received on it. I suspect, along 
with Senator Grassley, I will in the coming months be asking 
more questions. Thank you.
    Chairman Specter. Thank you, Senator Leahy.
    Director Mueller, what is the problem with getting a 
briefing on this issue?
    Director Mueller. On?
    Chairman Specter. On the anthrax issue, the anthrax 
investigation.
    Director Mueller. Well, as set forth in the letter from the 
Attorney General, there are aspects of the investigation that 
are grand jury matters at this point. There are aspects of the 
information that can, and should not, be disclosed, even to 
victims.
    Yes, we can give an over-arching briefing as to how many 
people we have on it, but you are asking for something more. It 
is the Department's policy that, where you have an ongoing 
investigation such as this, a grand jury investigation, that 
such a thorough briefing should not be given.
    Chairman Specter. Well, Director Mueller, I would ask you 
to take a look at the legal authorities on the proposition that 
we asked both the Attorney General and Deputy Attorney General 
McNulty. If there is solid authority for Congressional 
oversight on pending investigations, you could invoke the grand 
jury secrecy cloak here in a little different area, but are 
there matters where the grand jury secrecy cloak would not be 
involved?
    Take a look at the authorities which were cited, and the 
exchange of letters that I directed, both to Attorney General 
Gonzales and Deputy Attorney General McNulty, that Congress 
does have authority for investigations on pending matters. We 
have that authority. Take a look at it and supplement your 
answer, please.
    Director Mueller. Let me also say, Senator, I am very 
sympathetic to what Senator Leahy says. Both of us in our 
careers have spent a great deal of time with victims, and the 
frustration of victims in not having the information they feel 
that they need to put what is happening into a context.
    I am very sympathetic and will take your words and go back 
and again discuss it with the Attorney General. But do not for 
a moment think that I do not understand your concerns, Senator 
Leahy, and your desire to learn more about the facts of what 
has happened and what we have been doing.
    Chairman Specter. Senator Grassley, do you have a 
supplemental comment?
    Senator Grassley. There was a grand jury inquiry when we 
were briefed 3 years ago. It seems to me, if we could be 
briefed then with a grand jury investigation, we could be 
briefed today with that same grand jury investigation going on.
    Chairman Specter. Director Mueller, include Senator 
Grassley's latest point in your response.
    Director Mueller. I will.
    Chairman Specter. Senator Feingold?
    Senator Feingold. Thank you, Mr. Chairman.
    Good to see you again, Mr. Director. Thank you for being 
here today. I have been in politics a while, but I have to say 
I was a little appalled by some of the statements made in the 
recent months by the President and the Vice President, and even 
the Attorney General, characterizing those who have raised 
concern about the NSA's warrantless wire tapping program as 
unpatriotic and opposing wire tapping terrorists.
    In October, President Bush said the following: ``If you 
don't think we should be listening in on the terrorists, then 
you ought to vote for the Democrats.'' Even after the election, 
the Attorney General said the critics of the NSA program 
``argue nothing could justify the government being able to 
intercept conversations like the one the program targets,'' and 
he said that ``critics' definition of freedom is both utterly 
divorced from civic responsibility, in itself a grave threat to 
the liberty and security of the American people.''
    Now, these statements are blatantly false, offensive, and 
outrageous. Mr. Director, do you know of anyone in this 
country, Democrat or Republican, in government or on the 
outside, who has argued that the U.S. Government should not 
wire tap suspected terrorists?
    Director Mueller. No.
    Senator Feingold. Thank you for that answer. I also do not 
know a single person who has said the U.S. Government should 
not wire tap suspected terrorists. Of course it should. The 
President and the Attorney General should have the decency and 
the honesty to stop suggesting otherwise.
    As you well know, the issue is not whether the executive 
branch should wire tap suspected terrorists, it is whether it 
should have to follow the laws passed by Congress when it 
actually conducts these wire taps.
    So let me ask you another question. Do you agree with the 
Attorney General that anyone who has raised questions about the 
legality of the NSA's wire tapping program poses--and let me 
quote the Attorney General again--''a grave threat to the 
liberty and security of the American people''?
    Director Mueller. I do not think it is appropriate for me 
to comment on what the Attorney General has said. He is much 
more familiar with the program than I am.
    Senator Feingold. Do you believe independently of the 
Attorney General's statements, that people that make those 
statements are a ``grave threat to the liberty and security of 
the American people''?
    Director Mueller. Again, I am going to refrain from 
commenting on what the Attorney General said.
    Senator Feingold. I just asked you for your independent 
opinion of whether these types of individuals are--
    Director Mueller. I would find it very hard to divorce my 
independent opinion from--well, I go back to saying I think it 
is inappropriate for me to comment on what the Attorney General 
has said. That is his. I think he ought to be asked about those 
comments.
    Senator Feingold. What I am asking you now, Mr. Director, 
is whether or not you believe people who have questioned the 
legality of the NSA wire tapping program pose a threat. I have 
taken the Attorney General's quote out of it now.
    Director Mueller. I believe that Congress should look at 
all aspects of the program and understand the context in which 
technology has developed exponentially, and there is a 
necessity to address new ways of giving us the tools you need 
to be successful in thwarting terrorist attacks. There can be 
different ways of doing that.
    There can be arguments on both sides, but Congress needs to 
grapple with the issues of this expanding technology and give 
us the tools we need to expeditiously do that which you said at 
the outset, which is to wire tap putative terrorists' 
conversations so we have the information we need do our jobs.
    Now, in the midst of that, there are people who believe the 
same underlying proposition that you set forth at the outset, 
but may disagree on the tools to do that.
    Senator Feingold. Well, I can certainly say if that had 
been the statements during the campaign, Mr. Director, I would 
not have any problem and I would not be making these comments 
right now. It is time for this administration to stop 
exploiting the terrorist threat to justify its power grab.
    Congress needs to understand fully why the administration 
decided to violate the FISA Act. We need to have a serious 
dialogue about whether FISA has shortcomings that need to be 
addressed.
    I do not think we can do that when, instead of the kinds of 
things you just said, which is a reasonable statement of the 
issue, the President and the Attorney General are falsely 
accusing their critics of sympathizing with terrorists. That 
kind of political scare tactic has got to stop. I appreciate 
the fact that you have not engaged in this kind of inflammatory 
rhetoric.
    I would like to make a final point in this. A number of 
administration officials over the past few months have talked 
about the need to modernize FISA to make it technology neutral 
and address some of the anomalies that have been created by 
changes in the communications infrastructure, which you were 
alluding to. That sounds like a reasonable goal. Senator 
Feinstein and others are working on accommodating that.
    The problem is, the legislation the administration has 
presented as supposedly modernizing FISA really does no such 
thing. I think, to me, it pretty clearly guts FISA entirely. It 
wipes out 30 years of law and replaces it with a blank check 
for the President to wire tap whoever he wants. Now, that is 
typical of the kind of over-reaching misrepresentations made by 
some in this administration.
    I would simply like to urge you, Mr. Director, to convey to 
your colleagues that if they truly want to work with the next 
Congress to accomplish goals that all of us can agree on, that 
they try a new approach. They have to stop over-reaching and 
come to the table willing to have an honest discussion about 
changes that they believe need to be made in light of 
technology advances.
    I am very open to those kinds of reasonable arguments. 
Honest discussion of these issues has been sorely lacking in 
recent years and it is going to be absolutely critical if we 
are going to work together to move this country forward.
    Mr. Director, will you deliver that message?
    Director Mueller. Yes, sir.
    Senator Feingold. I thank you.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Feingold.
    Senator Kyl, you have joined us. I will turn to you for 
questioning.
    Senator Kyl. All right. Thank you, Mr. Chairman. I would be 
happy, if you want to go ahead, to defer.
    Chairman Specter. No, no. You take your first round.
    Senator Kyl. All right. Thank you.
    Welcome, Mr. Director. First of all, we have, over the 
years, responded to a lot of recommendations of the Department 
of Justice with regard to changes in the law to better fight 
the terrorists.
    Are there ideas that you have today for additional tools to 
fight the terrorists that you would like to share with us, or 
would you be willing to provide those for the record?
    Director Mueller. I can mention two off the top of my head, 
but there may be others that I would like to get back to you 
on.
    One, is I go back to administrative subpoenas. I have 
mentioned this before to the Committee on several occasions in 
the past. It would ease our burden in terms of our ability to 
get the information we need to swiftly determine whether or not 
a threat is a valid threat and the persons who may be 
implicated deserve further attention.
    Second, one of the threats we face in the terrorism arena 
are individuals who are not necessarily aligned with a 
terrorist group overseas which would be a designated foreign 
entity, but is deserving of the use of the FISA process to 
immediately and very quickly determine whether or not the 
communications--whether it be communications over cell phones, 
telephones, or the Internet--and make those readily available. 
We are constrained still by Title 3.
    One of the developments that we would like to explore is 
utilizing the FISA process where we have individuals who do not 
necessarily meet the current prerequisites under FISA, but 
still present that threat, the kind of threat that we saw that 
led to Oklahoma City, and give us the FISA tool for addressing 
that threat in the United States.
    Senator Kyl. In regard to that latter point, even though we 
provided something called the ``Masawi fix'' to deal with a 
person that could not be connected specifically to a known 
terrorist organization, we have now eliminated that requirement 
but we still require the person to be foreign-born.
    Director Mueller. Right.
    Senator Kyl. That is to say, not to be a U.S. citizen. So, 
something to deal with somebody who is not a foreign person 
would be useful.
    Director Mueller. A McVeigh, for instance.
    Senator Kyl. Yes.
    Just to remind us--I have forgotten the statistics now--but 
there are 200 or 300 administrative subpoena authorities 
existing in our government today for various agencies, from the 
post office, to Social Security, and so on. Can you remind us 
of how common that is and why it is useful in the context that 
you mentioned it?
    Director Mueller. Just to name a few, in health care fraud, 
child pornography, drug cases the DEA has authority. The 
ability that we would have to immediately, when we get word 
there is a piece of information in a motel, or in a hotel, or 
at a bank that we need rather quickly, issue an administrative 
subpoena has a number of benefits, in the sense that it is an 
order to produce the documents, not just a letter, as you have 
with the national security letter.
    There also is the enforcement possibility by the courts. 
Those are the benefits to us, the speed, the ability to get 
that information quickly, and also to have the authority of the 
courts, which we do not have with the national security letter.
    On the other hand, from the perspective of the recipient of 
the letter they have an opportunity to contest if it is over-
broad; if there are some reasons why one should not comply, 
there is the opportunity then to go to court and get that 
resolved. Both parties would have the right to appeal whatever 
initial decision is made.
    So from the perspective of speed, and second in terms of 
getting a swift resolution to the issues that may be raised, it 
is a very useful tool. That is used, as you have pointed out 
and we have indicated, in any number of other areas far less 
important to the overall weal of the country than preventing 
terrorist attacks.
    Senator Kyl. Indeed, we will work with you on that, then.
    Finally, just a quick status report, if you would, on the 
work to combine the IDENT and IAFIS fingerprint systems, so 
important, among other things, for our border security.
    Director Mueller. When Mike Chertoff came in and took over 
the Department of Homeland Security, we broke a logjam in terms 
of establishing two separate systems. We are well along the 
lines of addressing the complaints that first found a home in 
the IG reports as to two separate systems.
    I would have to get back to you on where we are in the 
continuum of developing that, but there certainly is will on 
both sides to get that accomplished, understanding that a ten-
print is the idea and that there ought to be a merging of, and 
a development from, the two-print to the ten-print and a 
merging of the databases and utilizing the ultimate IAFIS 
database to the benefit of both the Bureau, State and local law 
enforcement, as well as Department of Homeland Security.
    Senator Kyl. Thank you very much.
    Chairman Specter. Thank you very much, Senator Kyl.
    Director Mueller, there have been media reports that the 
FBI is assisting the British investigators on the allegations 
relating to the international poisoning case. Is the FBI 
assisting in that investigation?
    Director Mueller. Let me just say, we have provided 
assistance in a couple of instances where there were questions 
that Scotland Yard wanted asked of individuals in the United 
States. That is one way we have been assisting.
    Also, our laboratory has been providing some guidance and 
substantial expertise in the U.K. But to the extent that we can 
add some assistance in terms of our understanding of Polonium 
210, we have provided that to Scotland Yard.
    Chairman Specter. Well, that is certainly something to be 
pursued with all the resources available on an international 
basis, beyond our cooperation with the British generally. If 
the reports are true, it is really an extraordinary case and it 
has potential for application far beyond Great Britain, with 
the subtleties of the action taken, if true.
    So to whatever extent assistance is requested there --I 
know in law enforcement you do not stick on strictly 
jurisdictional lines, but that is something we commend you for 
pursuing.
    Director Mueller. Any request from the U.K. on that case, 
we would try to accommodate.
    Chairman Specter. Then we can doubtless have some better 
oversight than we have on the anthrax investigation.
    Director Mueller. Was that a question, sir?
    Chairman Specter. No, that was a statement.
    Director Mueller. Yes, sir.
    Chairman Specter. There was a report in the Washington Post 
on October 11 that, after 5 years beyond 9/11, the FBI still 
has only 33 Arabic-speaking agents. Is that true?
    Director Mueller. Well, I think it ought to be put into 
context, Mr. Chairman. We have within the Bureau almost a 
couple of hundred agents with some capability in Arabic.
    Chairman Specter. How many?
    Director Mueller. Two hundred. I am sorry. Middle Eastern 
languages, as is pointed out, 159 in Arabic. But what we 
measure, are those that are at Level II in proficiency. There 
the story was accurate in terms of, in Arabic.
    Chairman Specter. Only 33.
    Director Mueller. We have a total of 52 who are proficient 
in Middle Eastern languages, which include Farsi, Turkish, and 
Urdu, for instance.
    Chairman Specter. Director Mueller, when you combine that 
with the answers which we finally did receive on November 30 to 
the May 2 questions submitted for the record, you had responded 
that, of the 7,028 hours of recordings that needed translating, 
more than 46 percent--33,240 hours--could not be interpreted 
due to obscure language and dialects so that you cannot 
interpret what is on the recordings. I see a puzzled look on 
your face. Is that inaccurate?
    Director Mueller. Well, I would have to go back and look at 
it. We have, in addition to the agents who are Level II or 
higher, 411 linguists in Middle Eastern languages.
    Now, in the past we have had issues with regard to 
particular esoteric dialects, but when we have had a case, 
particularly a Priority One case, which is a terrorist case, 
that presents a short-term threat, we have reached out to other 
agencies, whether it be DoD or CIA, to obtain whatever 
translation ability we need. I would have to go back and see 
what those figures reflect.
    Chairman Specter. Well, Director Mueller, we had the famous 
situation, if true--and apparently it is--that there was a 
recording on September 10, the day before 9/11, that there 
would be an attack and it was not transcribed until the day 
after, September 12. Now, it is obviously a difficult matter 
with the dialects and the complications.
    The recruiting of people skilled in these lines is not an 
easy matter. Can the Congress be of any help to you on funding 
or any assistance in getting the people that we need to make 
these interpretations, translations?
    Director Mueller. The Congress can always be of help to us 
in funding. In fact, I do want to mention one point there, 
because if we do not get back to the computer systems, I do 
want to get back to that.
    But in terms of funding, we are looking, and have tried a 
number of approaches to attract persons to be agents. We have 
gone through thousands of individuals and are continuing to try 
to attract and to recruit agents with various Middle Eastern 
language skills.
    We have put together recently another task force. We have 
enlisted some outside help to do that. I hope, by the time I am 
in next year to testify, that we will have some results and 
improvements.
    If I might spend a moment just on the issue with regard to 
Sentinel, and what I raised and what Senator Leahy raised 
earlier about the $57 million.
    Chairman Specter. Go ahead.
    Director Mueller. I tried to point out that the total for 
Phase II, which has always been the total for Phase II, is $157 
million. I think it was $150 million, and then for some reason 
it went up to $157 million.
    When we sat down to get the budgeting on this, the 
administration was willing to give us $100 million. In 
negotiations with OMB, we had to find the $57 million in 
previous-year monies and the like, which we have done.
    But with a continuing resolution--we are in a continuing 
resolution phase at this juncture--the Senate mark-up is for 
$80 million of the $100 million requested. The House mark-up is 
for the full $100 million that we have requested.
    We have to go to Lockheed Martin and enter into the 
contract for Phase II in February. My concern is that we would 
be precluded, I believe, legally to entering into that contract 
if we do not get the monies authorized by Congress in advance 
of them.
    So we have the $157 million that has been requested, but 
when you ask, can Congress help on the funding, Congress could 
help on the funding by including the continuing resolution the 
$100 million we need to augment and supplement the $57 million 
we have set aside for Phase II of Sentinel.
    Chairman Specter. Congress could be of assistance to the 
FBI if Congress would fulfill its appropriations function. That 
is a yes answer, Director.
    Senator Leahy. Mr. Chairman, I agree on that.
    Director Mueller. I had to think it through.
    Chairman Specter. I was on the floor yesterday on the issue 
of the Subcommittee which I chair on appropriations, Labor, 
Health, Human Services, and Education. There are so many 
important programs where we have held hearings and reevaluated 
what we need, and we have been stymied in bringing our bills to 
the floor and we have been stymied in having conferences.
    What you have just talked about, the difference between the 
House and the Senate, these differences are created in order to 
have negotiating room to make concessions. I think it highly 
likely that the $100 million figure would have been the result 
in conference.
    I have a long list of complaints about that. My squash 
partner today complained about NOAA on ocean funding. On the 
lower level, they are going to have people discharged. It is a 
highly deplorable situation.
    But if there is an effort made, Senator Leahy can confirm, 
to pick out the FBI, much as it is needed, that would set off a 
chain reaction of hundreds--probably thousands--of items.
    I am interested to hear this because it will give us 
additional ammunition--Senator Leahy and I are both on 
appropriations--to try to get our colleagues to do the work 
necessary to finish these bills.
    Senator Leahy. Well, also, I might say, Mr. Chairman, it 
requires leadership to do it. We have completed action on many 
of the appropriations bills at the Committee level, but even 
though the law required us to get all these done by the end of 
September, we spent a great deal of time with major debate on 
gay marriage, flag burning, Terry Schiavo, and all those 
things, which may be fine and good, but it would have been nice 
if we had done the business that the law requires us to do, and 
the American people expect us to do first, and then take the 
time on some of these things.
    They easily could have passed every one of these 
appropriations bills if the leadership of the House and the 
Senate wanted to. Frankly, I think one of the reasons the 
American people have changed the leadership is because they 
knew they did not do their job.
    Director Mueller. Well, I know both are on appropriations 
committees. As Senator Leahy suggested at the outset, we ought 
to learn from our mistakes, and I believe we have done so. I 
think the IG's most recent report indicated that we have 
learned. We are continuously being monitored in the Sentinel 
program by the IG, by the GAO, by this committee, and by the 
appropriations committees and others.
    I believe everybody believes this project is worthwhile. I 
believe they believe it is on target. It does have risks, but 
we do need the money to go forward. I would not want to have to 
delay the project, which is important to the Bureau, because we 
did not have the funding necessary to start Phase II at the 
time that we had indicated that we needed to.
    I might also say that this has been the subject of 
discussions with the appropriations Committee since we 
indicated that we were entering into this contract with 
Lockheed Martin.
    Chairman Specter. I have one final question before yielding 
to Senator Leahy.
    Senator Leahy. I am going to have to leave, but go ahead.
    Chairman Specter. No, you go ahead.
    Senator Leahy. No, go ahead. Go ahead.
    Chairman Specter. No, no. You pick it up and I will ask it 
when you finish.
    Senator Leahy. If I might, I am going to have to leave for 
another thing. But I have asked for answers from the Department 
of Justice, and the FBI, and others regarding what we have seen 
reported--and actually in some instances documented--cases of 
abuse of detainees in U.S. custody.
    According to press reports, the CIA disclosed the existence 
of two interrogation documents. One was a presidential 
directive regarding the CIA's interrogation methods and 
detention facilities located outside of the United States, and 
an August 2002 Department of Justice memorandum to the CIA 
General Counsel regarding CIA interrogation methods, the so-
called second Bybee memo. This has turned out an ongoing FOIA 
lawsuit.
    Have you reviewed either the presidential directive 
regarding the CIA's interrogation methods in secret detention 
facilities or the second Bybee memo?
    Director Mueller. No, sir.
    Senator Leahy. Would you be able to provide these documents 
to the committee?
    Director Mueller. I do not have them and have not seen 
them.
    Senator Leahy. I want to ask you then about a practice that 
is euphemistically known as ``extraordinary rendition'', or 
some have more accurately called it torture by proxy. Press 
reports have described cases in which suspects are arrested, or 
in some cases kidnapped on foreign soil--I am not going to go 
into the case of one arrested on American soil--and then, 
without any judicial process they are flown to third countries 
for the purpose of detention and abusive interrogation.
    A German citizen named Khalid al Masri was snatched off the 
streets in Macedonia and was flown to Afghanistan, where he was 
tortured and held for five months in a secret prison.
    Director, has the FBI participated, directly or indirectly, 
in any extraordinary rendition since you have been Director?
    Director Mueller. Not as you describe them. I am not 
familiar with the al Masri case. I will tell you that we 
participate in renditions where we have an outstanding piece of 
paper--and by that I mean either an indictment or a complaint 
against an individual--and we locate that individual in a 
foreign country, and generally with the cooperation of the 
government, that person is rendered back to the United States. 
We had a recent example of that.
    Senator Leahy. Rendered to the United States?
    Director Mueller. Back to the United States. Those are the 
renditions that we engage in. So I want to be clear, when you 
are talking about renditions, that we do engage in this type of 
rendition where a person is, generally with the cooperation of 
the foreign government, rendered to the United States, even 
though there is no extradition treaty.
    We had a recent case involving Bangladesh, with whom we 
have no extradition treaty, but we did have charges against an 
individual and we worked cooperatively with that government to 
have that person rendered back to the United States.
    Senator Leahy. Was the FBI involved with the Canadian 
citizen who was sent to Syria?
    Director Mueller. We were.
    Senator Leahy. You know the case I am referring to?
    Director Mueller. I think you are discussing the Arrar 
case?
    Senator Leahy. Yes.
    Director Mueller. I am somewhat limited in what I can say 
about that case because it is in litigation. I can say that we 
did participate here in the questioning of Mr. Arrar. We did 
not make the decision as to which country he should be deported 
to.
    Senator Leahy. Of course, some might say, as a Canadian 
citizen on his way to Canada, you might have sent him to 
Canada. Just think how much better off we all would be had that 
been done. I just throw that out rhetorically.
    You talk about people coming here. Has the FBI been 
involved in identifying or locating persons who were 
subsequently rendered to other countries?
    Director Mueller. I am sorry, sir. Could you repeat the 
question?
    Senator Leahy. Has the FBI been involved in identifying or 
locating persons who were subsequently rendered to other 
countries by the CIA?
    Director Mueller. I do not believe so. I do not believe so, 
but if I could get back to you on that, if I could spend some 
time looking at the question and assure that I fully understand 
it.
    Senator Leahy. Are you investigating any of the allegations 
that have been made by al Masri and others concerning possible 
violations of U.S. laws?
    Director Mueller. No.
    Senator Leahy. Well, you and I will have further 
discussions on this, you can imagine.
    Let me just tell you one thing that bothers the heck out of 
me. Here is an article in a newspaper that has always been pro-
law enforcement. I am going to give you this. It says, ``FBI 
Agent's Story Threatens Rooney Case''.
    Let me tell you what that is. You are probably familiar 
with it. We have a young woman from Arlington, Virginia, 
Michelle Gardner Quinn, 21 years old. She was a UVM senior. She 
is out with friends of hers in Burlington, Vermont, probably 
one of the safest cities in this country. She met up with 
somebody and, at least as it appears, within hours she was 
brutally murdered. A person has been arrested.
    I had talked to law enforcement officers, State law 
enforcement officers during that time simply to make sure, if 
there was anything that they needed and were not getting from 
the Federal Government, I would be happy to make calls for 
them.
    Obviously I was not going to get involved in the 
investigation; they are highly competent. They assured me they 
were getting all the help they needed, but if they need more, 
they would call.
    Then, last month, an FBI agent wrote an article for a local 
paper, another paper, detailed the murder investigation and all 
the evidence in this case in a very self-congratulatory 
fashion: look what we did. An FBI agent did this.
    Now, as I said, State, local, county, and Federally, people 
cooperated beautifully in this matter in a horribly, horribly 
tragic thing, something that just stunned the State of Vermont.
    I was in Vermont at the time that the press accounts down 
here. Local press accounts were significant. It was just a 
horrible thing. It brought the community together in a way, 
hoping to get this.
    He detailed this. Of course, the defense attorney, doing as 
a defense attorney should, immediately raised this as a Motion 
to Dismiss, which the courts denied, saying that it would taint 
any future jury. The court ruled the right way. But it just 
raises another issue, a major issue, on appeal.
    Now, if I had had an investigator in my office when I was a 
prosecutor, I would have fired them on the spot. What in 
heaven's name was this agent--has this come to your attention?
    Director Mueller. Yes, it has. It has been referred for 
investigation.
    Senator Leahy. This is something you would never do. I 
mean, you have had experience as a prosecutor and everything 
else. I mean, were you as shocked as I was?
    Director Mueller. Let me just say, it is very unfortunate 
this occurred. On the one hand, I have heard, as I think you 
have, that the cooperation was excellent and the cooperation of 
all contributed to identifying and arresting the individual who 
was responsible for this terrific tragedy.
    We have apologized to the Burlington police department, to 
the Vermont State Police, and other partners in that 
investigation that this occurred.
    Senator Leahy. That is what they have told me.
    Director Mueller. We have referred this for investigation 
to determine what policies may well have been violated by this 
agent.
    Senator Leahy. Well, I would assume that it would be FBI 
policy, if you are in the middle of an investigation or 
involved in an investigation that has not even gone to trial, 
you do not have an FBI agent going and writing an article or 
paper saying, look at what a great job we have done.
    I mean, I do not mind people bragging after the conviction 
is over. But can we say, at least in the abstract, that it 
would be totally against your policy?
    Director Mueller. Yes.
    Senator Leahy. All right. I think that would be the same.
    Director Mueller. That is what the investigation is looking 
into, exactly that, the disclosure of sensitive information 
during the course of an investigation.
    Senator Leahy. I must admit, and I have been asked about 
this by the press, who defended the FBI and everybody else as 
being highly professional, and said that this had to be an 
aberration. But I cannot emphasize enough how upset we were in 
Vermont, how demoralized the police officers were. These people 
canceled vacations. They worked around the clock.
    In my experience in our State of Vermont, I have never seen 
law enforcement work so hard on a matter as this, and with 
great cooperation from the Bureau and everybody else. To see 
this happen is just awful. So I leave it at that, but I want 
you to know that this is not a matter of just passing concern 
to me.
    Director Mueller. Thank you.
    Senator Leahy. Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Leahy.
    Director Mueller, following up on what Senator Grassley had 
asked about leaks: there was a leak three weeks before the last 
election about an investigation into Congressman Curt Weldon, 
who represents Delaware County in the Philadelphia suburbs.
    Director Mueller. Yes, sir.
    Chairman Specter. Following the leak in the newspapers, 
there was a search and seizure, highly publicized in advance, 
on Congressman Weldon's daughter's property. I know that this 
is a matter which is under investigation by the Department of 
Justice because it was raised in a meeting I had with Attorney 
General Gonzales.
    To have that kind of a disclosure 3 weeks before an 
election, is extraordinarily unfairly prejudicial. Whatever 
investigation the Federal authorizations have is a very 
important matter, obviously, and has to be pursued.
    It does not matter who was under investigation, whether it 
is a Member of Congress, or anyone; that is outside of the 
realm. But to have the timing in such a highly prejudicial way 
casts a real question-mark on what is going on.
    To what extent can you shed any light on that leak, on 
efforts to determine the source of the leak or efforts to stop 
those leaks? The FBI has gigantic power, which we all know. 
When I was District Attorney in Philadelphia, the common 
parlance was that the D.A. has the keys to the jail. But the 
disclosure of a pending investigation can be disastrous.
    Comment?
    Director Mueller. I was exceptionally disappointed--and 
that is being charitable--in terms of my response upon hearing 
about the leak. It is unfair, in advance of an election. But as 
importantly to us, it adversely affected the investigation and, 
consequently on that and several other matters that occurred at 
about the same time, we have initiated investigation.
    I am periodically updated on those particular 
investigations and believe that we are having some success. But 
there are a serious of investigations. We have undertaken some 
by our inspection side, some--at least one--we are looking at 
as a criminal investigation.
    Chairman Specter. You think you are having some success--
    Director Mueller. I do believe that we are having success.
    Chairman Specter. [Continuing]. On the Weldon 
investigation?
    Director Mueller. I do not want to specify a particular 
investigation. There are a series of investigations that we 
undertook at the same time. I think it is fair to say, although 
I usually say I can neither confirm nor deny an investigation, 
in this particular case we are pursuing it. By that, I mean 
Congressman Weldon.
    Chairman Specter. Well, all right. That is reassuring to 
hear, Director Mueller.
    Well, it is 11:42. You have been here a long time. You had 
a very good turnout from Senators. This is a right tough week 
to attract the attention of Senators, but you have given us 
very many important messages.
    I would like you to go back to the executive officials, as 
I will, to see if you cannot brief this Committee on the 
aspects of the Terrorist Surveillance Program which come within 
your jurisdiction. Much of it does not come within your 
jurisdiction, but what does come within your jurisdiction, I 
think this Committee is entitled to have the oversight 
function.
    The comments you made about the appropriations process are 
very, very, very serious. I will publicize them among my 
colleagues as to the impact that it has on a really vital 
program. We need you to get the technology up to date because 
your ability to track terrorists and interface with the other 
investigative branches depends upon the technology.
    Director Mueller. Yes.
    Chairman Specter. Thank you very much, Director Mueller.
    Director Mueller. Thank you.
    Chairman Specter. That concludes our hearing.
    [Whereupon, at 11:45 a.m. the hearing was concluded.]
    Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T6140.001

[GRAPHIC] [TIFF OMITTED] T6140.002

[GRAPHIC] [TIFF OMITTED] T6140.003

[GRAPHIC] [TIFF OMITTED] T6140.004

[GRAPHIC] [TIFF OMITTED] T6140.005

[GRAPHIC] [TIFF OMITTED] T6140.006

[GRAPHIC] [TIFF OMITTED] T6140.007

[GRAPHIC] [TIFF OMITTED] T6140.008

[GRAPHIC] [TIFF OMITTED] T6140.009

[GRAPHIC] [TIFF OMITTED] T6140.010

[GRAPHIC] [TIFF OMITTED] T6140.011

[GRAPHIC] [TIFF OMITTED] T6140.012

[GRAPHIC] [TIFF OMITTED] T6140.013

[GRAPHIC] [TIFF OMITTED] T6140.014

[GRAPHIC] [TIFF OMITTED] T6140.015

[GRAPHIC] [TIFF OMITTED] T6140.016

[GRAPHIC] [TIFF OMITTED] T6140.017

[GRAPHIC] [TIFF OMITTED] T6140.018

[GRAPHIC] [TIFF OMITTED] T6140.019

[GRAPHIC] [TIFF OMITTED] T6140.020

[GRAPHIC] [TIFF OMITTED] T6140.021

[GRAPHIC] [TIFF OMITTED] T6140.022

[GRAPHIC] [TIFF OMITTED] T6140.023

[GRAPHIC] [TIFF OMITTED] T6140.024

[GRAPHIC] [TIFF OMITTED] T6140.025

[GRAPHIC] [TIFF OMITTED] T6140.026

[GRAPHIC] [TIFF OMITTED] T6140.027

[GRAPHIC] [TIFF OMITTED] T6140.028

[GRAPHIC] [TIFF OMITTED] T6140.029

[GRAPHIC] [TIFF OMITTED] T6140.030

[GRAPHIC] [TIFF OMITTED] T6140.031

[GRAPHIC] [TIFF OMITTED] T6140.032

[GRAPHIC] [TIFF OMITTED] T6140.033

[GRAPHIC] [TIFF OMITTED] T6140.034

[GRAPHIC] [TIFF OMITTED] T6140.035

[GRAPHIC] [TIFF OMITTED] T6140.036

[GRAPHIC] [TIFF OMITTED] T6140.037

[GRAPHIC] [TIFF OMITTED] T6140.038

[GRAPHIC] [TIFF OMITTED] T6140.039

[GRAPHIC] [TIFF OMITTED] T6140.040

[GRAPHIC] [TIFF OMITTED] T6140.041

[GRAPHIC] [TIFF OMITTED] T6140.042

[GRAPHIC] [TIFF OMITTED] T6140.043

[GRAPHIC] [TIFF OMITTED] T6140.044

[GRAPHIC] [TIFF OMITTED] T6140.045

[GRAPHIC] [TIFF OMITTED] T6140.046

[GRAPHIC] [TIFF OMITTED] T6140.047

[GRAPHIC] [TIFF OMITTED] T6140.048

[GRAPHIC] [TIFF OMITTED] T6140.049

[GRAPHIC] [TIFF OMITTED] T6140.050

[GRAPHIC] [TIFF OMITTED] T6140.051

[GRAPHIC] [TIFF OMITTED] T6140.052

[GRAPHIC] [TIFF OMITTED] T6140.053

[GRAPHIC] [TIFF OMITTED] T6140.054

[GRAPHIC] [TIFF OMITTED] T6140.055

[GRAPHIC] [TIFF OMITTED] T6140.056

[GRAPHIC] [TIFF OMITTED] T6140.057

[GRAPHIC] [TIFF OMITTED] T6140.058

[GRAPHIC] [TIFF OMITTED] T6140.059

[GRAPHIC] [TIFF OMITTED] T6140.060

[GRAPHIC] [TIFF OMITTED] T6140.061

[GRAPHIC] [TIFF OMITTED] T6140.062

[GRAPHIC] [TIFF OMITTED] T6140.063

[GRAPHIC] [TIFF OMITTED] T6140.064

[GRAPHIC] [TIFF OMITTED] T6140.065

[GRAPHIC] [TIFF OMITTED] T6140.066

[GRAPHIC] [TIFF OMITTED] T6140.067

[GRAPHIC] [TIFF OMITTED] T6140.068

[GRAPHIC] [TIFF OMITTED] T6140.069

[GRAPHIC] [TIFF OMITTED] T6140.070

[GRAPHIC] [TIFF OMITTED] T6140.071

[GRAPHIC] [TIFF OMITTED] T6140.072

[GRAPHIC] [TIFF OMITTED] T6140.073

[GRAPHIC] [TIFF OMITTED] T6140.074

[GRAPHIC] [TIFF OMITTED] T6140.075

[GRAPHIC] [TIFF OMITTED] T6140.076

[GRAPHIC] [TIFF OMITTED] T6140.077

[GRAPHIC] [TIFF OMITTED] T6140.078

[GRAPHIC] [TIFF OMITTED] T6140.079

[GRAPHIC] [TIFF OMITTED] T6140.080

[GRAPHIC] [TIFF OMITTED] T6140.081

[GRAPHIC] [TIFF OMITTED] T6140.082

[GRAPHIC] [TIFF OMITTED] T6140.083

[GRAPHIC] [TIFF OMITTED] T6140.084

[GRAPHIC] [TIFF OMITTED] T6140.085

[GRAPHIC] [TIFF OMITTED] T6140.086

[GRAPHIC] [TIFF OMITTED] T6140.087

[GRAPHIC] [TIFF OMITTED] T6140.088

[GRAPHIC] [TIFF OMITTED] T6140.089

[GRAPHIC] [TIFF OMITTED] T6140.090

[GRAPHIC] [TIFF OMITTED] T6140.091

[GRAPHIC] [TIFF OMITTED] T6140.092

[GRAPHIC] [TIFF OMITTED] T6140.093

[GRAPHIC] [TIFF OMITTED] T6140.094

[GRAPHIC] [TIFF OMITTED] T6140.095

[GRAPHIC] [TIFF OMITTED] T6140.096

[GRAPHIC] [TIFF OMITTED] T6140.097

[GRAPHIC] [TIFF OMITTED] T6140.098

[GRAPHIC] [TIFF OMITTED] T6140.099

[GRAPHIC] [TIFF OMITTED] T6140.100

[GRAPHIC] [TIFF OMITTED] T6140.101

[GRAPHIC] [TIFF OMITTED] T6140.102

[GRAPHIC] [TIFF OMITTED] T6140.103

[GRAPHIC] [TIFF OMITTED] T6140.104

[GRAPHIC] [TIFF OMITTED] T6140.105

[GRAPHIC] [TIFF OMITTED] T6140.106

[GRAPHIC] [TIFF OMITTED] T6140.107

[GRAPHIC] [TIFF OMITTED] T6140.108

[GRAPHIC] [TIFF OMITTED] T6140.109

[GRAPHIC] [TIFF OMITTED] T6140.110

[GRAPHIC] [TIFF OMITTED] T6140.111

[GRAPHIC] [TIFF OMITTED] T6140.112

[GRAPHIC] [TIFF OMITTED] T6140.113

[GRAPHIC] [TIFF OMITTED] T6140.114

[GRAPHIC] [TIFF OMITTED] T6140.115

[GRAPHIC] [TIFF OMITTED] T6140.116

[GRAPHIC] [TIFF OMITTED] T6140.117

[GRAPHIC] [TIFF OMITTED] T6140.118

[GRAPHIC] [TIFF OMITTED] T6140.119

[GRAPHIC] [TIFF OMITTED] T6140.120

[GRAPHIC] [TIFF OMITTED] T6140.121

[GRAPHIC] [TIFF OMITTED] T6140.122

[GRAPHIC] [TIFF OMITTED] T6140.123

[GRAPHIC] [TIFF OMITTED] T6140.124

[GRAPHIC] [TIFF OMITTED] T6140.125

[GRAPHIC] [TIFF OMITTED] T6140.126

[GRAPHIC] [TIFF OMITTED] T6140.127

[GRAPHIC] [TIFF OMITTED] T6140.128

[GRAPHIC] [TIFF OMITTED] T6140.129

[GRAPHIC] [TIFF OMITTED] T6140.130

[GRAPHIC] [TIFF OMITTED] T6140.131

[GRAPHIC] [TIFF OMITTED] T6140.132

[GRAPHIC] [TIFF OMITTED] T6140.133

[GRAPHIC] [TIFF OMITTED] T6140.134

[GRAPHIC] [TIFF OMITTED] T6140.135

[GRAPHIC] [TIFF OMITTED] T6140.136

[GRAPHIC] [TIFF OMITTED] T6140.137

[GRAPHIC] [TIFF OMITTED] T6140.138

[GRAPHIC] [TIFF OMITTED] T6140.139

[GRAPHIC] [TIFF OMITTED] T6140.140

[GRAPHIC] [TIFF OMITTED] T6140.141

[GRAPHIC] [TIFF OMITTED] T6140.142

[GRAPHIC] [TIFF OMITTED] T6140.143

[GRAPHIC] [TIFF OMITTED] T6140.144

[GRAPHIC] [TIFF OMITTED] T6140.145

[GRAPHIC] [TIFF OMITTED] T6140.146

[GRAPHIC] [TIFF OMITTED] T6140.147

[GRAPHIC] [TIFF OMITTED] T6140.148

[GRAPHIC] [TIFF OMITTED] T6140.149

[GRAPHIC] [TIFF OMITTED] T6140.150

[GRAPHIC] [TIFF OMITTED] T6140.151

[GRAPHIC] [TIFF OMITTED] T6140.152

[GRAPHIC] [TIFF OMITTED] T6140.153

[GRAPHIC] [TIFF OMITTED] T6140.154

[GRAPHIC] [TIFF OMITTED] T6140.155

[GRAPHIC] [TIFF OMITTED] T6140.156

[GRAPHIC] [TIFF OMITTED] T6140.157

[GRAPHIC] [TIFF OMITTED] T6140.158

[GRAPHIC] [TIFF OMITTED] T6140.159

[GRAPHIC] [TIFF OMITTED] T6140.160

[GRAPHIC] [TIFF OMITTED] T6140.161

[GRAPHIC] [TIFF OMITTED] T6140.162

[GRAPHIC] [TIFF OMITTED] T6140.163

[GRAPHIC] [TIFF OMITTED] T6140.164

[GRAPHIC] [TIFF OMITTED] T6140.165

[GRAPHIC] [TIFF OMITTED] T6140.166

[GRAPHIC] [TIFF OMITTED] T6140.167

[GRAPHIC] [TIFF OMITTED] T6140.168

[GRAPHIC] [TIFF OMITTED] T6140.169

[GRAPHIC] [TIFF OMITTED] T6140.170

[GRAPHIC] [TIFF OMITTED] T6140.171

[GRAPHIC] [TIFF OMITTED] T6140.172

[GRAPHIC] [TIFF OMITTED] T6140.173

[GRAPHIC] [TIFF OMITTED] T6140.174

[GRAPHIC] [TIFF OMITTED] T6140.175

[GRAPHIC] [TIFF OMITTED] T6140.176

[GRAPHIC] [TIFF OMITTED] T6140.177

[GRAPHIC] [TIFF OMITTED] T6140.178

[GRAPHIC] [TIFF OMITTED] T6140.179

[GRAPHIC] [TIFF OMITTED] T6140.180

[GRAPHIC] [TIFF OMITTED] T6140.181

[GRAPHIC] [TIFF OMITTED] T6140.182

[GRAPHIC] [TIFF OMITTED] T6140.183

[GRAPHIC] [TIFF OMITTED] T6140.184

[GRAPHIC] [TIFF OMITTED] T6140.185

[GRAPHIC] [TIFF OMITTED] T6140.186

[GRAPHIC] [TIFF OMITTED] T6140.187

[GRAPHIC] [TIFF OMITTED] T6140.188

[GRAPHIC] [TIFF OMITTED] T6140.189

[GRAPHIC] [TIFF OMITTED] T6140.190

[GRAPHIC] [TIFF OMITTED] T6140.191

[GRAPHIC] [TIFF OMITTED] T6140.192

[GRAPHIC] [TIFF OMITTED] T6140.193

[GRAPHIC] [TIFF OMITTED] T6140.194

[GRAPHIC] [TIFF OMITTED] T6140.195

[GRAPHIC] [TIFF OMITTED] T6140.196

[GRAPHIC] [TIFF OMITTED] T6140.197

[GRAPHIC] [TIFF OMITTED] T6140.198

[GRAPHIC] [TIFF OMITTED] T6140.199

[GRAPHIC] [TIFF OMITTED] T6140.200

[GRAPHIC] [TIFF OMITTED] T6140.201

[GRAPHIC] [TIFF OMITTED] T6140.202

[GRAPHIC] [TIFF OMITTED] T6140.203

[GRAPHIC] [TIFF OMITTED] T6140.204

[GRAPHIC] [TIFF OMITTED] T6140.205

[GRAPHIC] [TIFF OMITTED] T6140.206

[GRAPHIC] [TIFF OMITTED] T6140.207

[GRAPHIC] [TIFF OMITTED] T6140.208

[GRAPHIC] [TIFF OMITTED] T6140.209

[GRAPHIC] [TIFF OMITTED] T6140.210

[GRAPHIC] [TIFF OMITTED] T6140.211

[GRAPHIC] [TIFF OMITTED] T6140.212

[GRAPHIC] [TIFF OMITTED] T6140.213

[GRAPHIC] [TIFF OMITTED] T6140.214

[GRAPHIC] [TIFF OMITTED] T6140.215

[GRAPHIC] [TIFF OMITTED] T6140.216

[GRAPHIC] [TIFF OMITTED] T6140.217

[GRAPHIC] [TIFF OMITTED] T6140.218

[GRAPHIC] [TIFF OMITTED] T6140.219

[GRAPHIC] [TIFF OMITTED] T6140.220

[GRAPHIC] [TIFF OMITTED] T6140.221

[GRAPHIC] [TIFF OMITTED] T6140.222

[GRAPHIC] [TIFF OMITTED] T6140.223

[GRAPHIC] [TIFF OMITTED] T6140.224

[GRAPHIC] [TIFF OMITTED] T6140.225

[GRAPHIC] [TIFF OMITTED] T6140.226

[GRAPHIC] [TIFF OMITTED] T6140.227

[GRAPHIC] [TIFF OMITTED] T6140.228

[GRAPHIC] [TIFF OMITTED] T6140.229

[GRAPHIC] [TIFF OMITTED] T6140.230

[GRAPHIC] [TIFF OMITTED] T6140.231

[GRAPHIC] [TIFF OMITTED] T6140.232

[GRAPHIC] [TIFF OMITTED] T6140.233

[GRAPHIC] [TIFF OMITTED] T6140.234

[GRAPHIC] [TIFF OMITTED] T6140.235

[GRAPHIC] [TIFF OMITTED] T6140.236

[GRAPHIC] [TIFF OMITTED] T6140.237

[GRAPHIC] [TIFF OMITTED] T6140.238

[GRAPHIC] [TIFF OMITTED] T6140.239

[GRAPHIC] [TIFF OMITTED] T6140.240

[GRAPHIC] [TIFF OMITTED] T6140.241

[GRAPHIC] [TIFF OMITTED] T6140.242

[GRAPHIC] [TIFF OMITTED] T6140.243

[GRAPHIC] [TIFF OMITTED] T6140.244

[GRAPHIC] [TIFF OMITTED] T6140.245

[GRAPHIC] [TIFF OMITTED] T6140.246

[GRAPHIC] [TIFF OMITTED] T6140.247

[GRAPHIC] [TIFF OMITTED] T6140.248

[GRAPHIC] [TIFF OMITTED] T6140.249

[GRAPHIC] [TIFF OMITTED] T6140.250

[GRAPHIC] [TIFF OMITTED] T6140.251

[GRAPHIC] [TIFF OMITTED] T6140.252

[GRAPHIC] [TIFF OMITTED] T6140.253

[GRAPHIC] [TIFF OMITTED] T6140.254

[GRAPHIC] [TIFF OMITTED] T6140.255

[GRAPHIC] [TIFF OMITTED] T6140.256

[GRAPHIC] [TIFF OMITTED] T6140.257

[GRAPHIC] [TIFF OMITTED] T6140.258

[GRAPHIC] [TIFF OMITTED] T6140.259

[GRAPHIC] [TIFF OMITTED] T6140.260

[GRAPHIC] [TIFF OMITTED] T6140.261

[GRAPHIC] [TIFF OMITTED] T6140.262

[GRAPHIC] [TIFF OMITTED] T6140.263

[GRAPHIC] [TIFF OMITTED] T6140.264

[GRAPHIC] [TIFF OMITTED] T6140.265

[GRAPHIC] [TIFF OMITTED] T6140.266

[GRAPHIC] [TIFF OMITTED] T6140.267

[GRAPHIC] [TIFF OMITTED] T6140.268

[GRAPHIC] [TIFF OMITTED] T6140.269

[GRAPHIC] [TIFF OMITTED] T6140.270

[GRAPHIC] [TIFF OMITTED] T6140.271

[GRAPHIC] [TIFF OMITTED] T6140.272

[GRAPHIC] [TIFF OMITTED] T6140.273

[GRAPHIC] [TIFF OMITTED] T6140.274

[GRAPHIC] [TIFF OMITTED] T6140.275

[GRAPHIC] [TIFF OMITTED] T6140.276

[GRAPHIC] [TIFF OMITTED] T6140.277

[GRAPHIC] [TIFF OMITTED] T6140.278

[GRAPHIC] [TIFF OMITTED] T6140.279

[GRAPHIC] [TIFF OMITTED] T6140.280

[GRAPHIC] [TIFF OMITTED] T6140.281

[GRAPHIC] [TIFF OMITTED] T6140.282

[GRAPHIC] [TIFF OMITTED] T6140.283

[GRAPHIC] [TIFF OMITTED] T6140.284

[GRAPHIC] [TIFF OMITTED] T6140.285

[GRAPHIC] [TIFF OMITTED] T6140.286

[GRAPHIC] [TIFF OMITTED] T6140.287

[GRAPHIC] [TIFF OMITTED] T6140.288

[GRAPHIC] [TIFF OMITTED] T6140.289

[GRAPHIC] [TIFF OMITTED] T6140.290

[GRAPHIC] [TIFF OMITTED] T6140.291

[GRAPHIC] [TIFF OMITTED] T6140.292

                                 <all>

</pre></body></html>
